<html>
<title> - BEYOND COMMUNITY STANDARDS AND A CONSTITUTIONAL LEVEL OF CARE? A REVIEW OF SERVICES, COSTS, AND STAFFING LEVELS AT THE CORRECTIONS MEDICAL RECEIVER FOR THE DISTRICT OF COLUMBIA JAIL</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




BEYOND COMMUNITY STANDARDS AND A CONSTITUTIONAL LEVEL OF CARE? A REVIEW 
  OF SERVICES, COSTS, AND STAFFING LEVELS AT THE CORRECTIONS MEDICAL 
               RECEIVER FOR THE DISTRICT OF COLUMBIA JAIL

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 30, 2000

                               __________

                           Serial No. 106-229

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                               ----------

                   U.S. GOVERNMENT PRINTING OFFICE
72-581                     WASHINGTON : 2001


_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                        Robert A. Briggs, Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

                Subcommittee on the District of Columbia

                  THOMAS M. DAVIS, Virginia, Chairman
CONSTANCE A. MORELLA, Maryland       ELEANOR HOLMES NORTON, Washington, 
STEPHEN HORN, California                 DC
JOE SCARBOROUGH, Florida             CAROLYN B. MALONEY, New York
                                     EDOLPHUS TOWNS, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                    Melissa Wojciak, Staff Director
                 Howie Denis, Professional Staff Member
              Victoria Proctor, Professional Staff Member
                           Jenny Mayer, Clerk
                      Jon Bouker, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on Juen 30, 2000....................................     1
Statement of:
    Ekstrand, Laurie, Director of Administration of Justice 
      Issues, General Government Division, U.S. General 
      Accounting Office; Ronald Shansky, M.D., corrections 
      medical receiver; Karen Schneider, special officer for the 
      U.S. District Court for the District of Columbia; Erik 
      Christian, deputy mayor for public health and justice; and 
      John Clark, District of Columbia Corrections trustee, 
      accompanied by Odie Washington, director, District of 
      Columbia Department of Corrections.........................    20
Letters, statements, etc., submitted for the record by:
    Christian, Erik, deputy mayor for public health and justice, 
      prepared statement of......................................   120
    Clark, John, District of Columbia Corrections trustee, 
      prepared statement of......................................   128
    Davis, Hon. Thomas M., a Representative in Congress from the 
      State of Virginia, prepared statement of...................     4
    Ekstrand, Laurie, Director of Administration of Justice 
      Issues, General Government Division, U.S. General 
      Accounting Office, prepared statement of...................    23
    Morella, Hon. Constance A., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    15
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia, prepared statement of................    11
    Schneider, Karen, special officer for the U.S. District Court 
      for the District of Columbia, prepared statement of........    45
    Shansky, Ronald, M.D., corrections medical receiver, prepared 
      statement of...............................................    35

 
BEYOND COMMUNITY STANDARDS AND A CONSTITUTIONAL LEVEL OF CARE? A REVIEW 
  OF SERVICES, COSTS, AND STAFFING LEVELS AT THE CORRECTIONS MEDICAL 
               RECEIVER FOR THE DISTRICT OF COLUMBIA JAIL

                              ----------                              


                         FRIDAY, JUNE 30, 2000

                  House of Representatives,
          Subcommittee on the District of Columbia,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2154, Rayburn House Office Building, Hon. Thomas M. Davis 
III (chairman of the subcommittee) presiding.
    Present: Representatives Davis, Morella, Horn, and Norton.
    Staff present: Melissa Wojciak, staff director; Howie Denis 
and Victoria Procter, professional staff members; David Marin, 
communications director/counsel; Jenny Mayer, clerk; Jon 
Bouker, minority counsel; and Jean Gosa, minority assistant 
clerk.
    Mr. Davis. Good morning and welcome.
    Today's hearing is the second in a series of oversight 
hearings examining the status of the D.C. agencies overseen by 
the court-appointed receivers. Currently, there are three 
agencies that are still in receivership, the Commission on 
Mental Health Services, the Corrections Medical Receiver for 
the District of Columbia Jail, and the Child and Family 
Services. Concerns about the delivery of services and 
managerial and financial practices in these agencies persists. 
The fourth agency in receivership is the District of Columbia 
Housing Authority, which has successfully recovered from 
mismanagement and is ready to be returned to the D.C. 
government's administration.
    Today the subcommittee is focused on the corrections 
medical receiver in the D.C. jail. The receiver was appointed 5 
years ago by the U.S. district court in order to address 
Constitutional violations in the delivery of health care at the 
jail. It is scheduled to end in September 2000.
    The subcommittee wants to examine the status of D.C.'s 
progress in meeting its court-ordered obligations so the jail 
may be returned to the city's jurisdiction.
    Rampant problems in the D.C. jail were enumerated in two 
class action lawsuits filed in the city in the early 1970's, in 
Campbell v. McGruder and Inmates of D.C. Jail v. Jackson were 
filed on behalf of pretrial detainees and sentenced inmates.
    The plaintiffs' charged that the conditions and treatment 
of inmates in jail were unconstitutional. The two suits were 
consolidated and senior U.S. Judge William B. Bryant presided 
over them for nearly 30 years.
    The time line highlights key court actions and events 
concerning the D.C. jail. Through the years, Judge Bryant has 
issued orders requiring the D.C. government to rectify problems 
with the jail's medical services. Despite assurances from the 
city that the necessary changes would be implemented, nothing 
materialized. Instead, the D.C. jail left the medical services 
program to languish at below-Constitutional levels.
    In April 1993, finding the D.C. government in persistent 
noncompliance with his orders, Judge Bryant appointed a special 
officer to monitor and report on the city's progress on meeting 
its court-ordered obligations. The city, however, continued to 
ignore the orders and the deficiencies in the jail's medical 
services delivery persisted.
    The jail's suicide rate was out of control. In addition, 
the jail lacked an effective program to prevent the spread of 
infectious tuberculosis.
    On January 5, 1995, the court ordered the implementation of 
the initial remedial plan. It was designed by the special 
officer after extensive consultation with the plaintiffs and 
the defendants and the special officer's own medical and mental 
health experts. The plan addressed the most immediate and 
egregious problems with the delivery of medical services at the 
jail. It also provided the framework for major long-term 
changes to policies and procedures, staffing, and 
organizational structure. The initial remedial plan was never 
implemented. In fact, on June 5, 1995, 5 months to the day 
after the District was ordered to implement the remedial plan, 
inmate Richard C. Johnson died. Mr. Johnson was an aged patient 
in the jail's infirmary who had been neglected for several days 
by the medical staff. His death highlighted the city's failure 
to address the severe deficiencies in the delivery of medical 
services at the jail.
    Citing the physical danger that the D.C. government's 
continued blatant violation of the court's previous order was 
tragically causing, Judge Bryant placed the jail's medical and 
mental health services under court-supervised receivership. The 
receiver was ordered to implement the initial remedial plan.
    The D.C. jail medical services have improved significantly 
under the receiver, Dr. Ronald Shansky. Dr. Shansky's tenure 
has brought the jail remedial changes to increase the level of 
medical and mental health services to a Constitutionally 
acceptable level.
    In addition, the D.C. jail's tuberculosis epidemic has been 
controlled, HIV/AIDS cases are identified and treated, and 
qualified medical staff have been hired to improve the delivery 
of care.
    The receiver has successfully implemented a suicide 
prevention program to identify potentially suicidal inmates and 
provide them with the necessary prevention treatment.
    Despite these improvements in the delivery of health care, 
it is disturbing that the receiver is leaving the D.C. jail 
with exorbitant medical costs per inmate and high staffing 
levels. In both cases, the figures far exceed the national 
average.
    The court order creating the receivership essentially gives 
the receiver carte blanche to spend the District's money 
freely, without regard to sound financial practices and 
accountability to the D.C. government. Of course, it is 
important to provide a Constitutional level of medical and 
mental health services to D.C. jail inmates, but should the 
D.C. jail receivership accomplish this by spending at least two 
to three times the national average per inmate per day? Can a 
city emerging from bankruptcy really sustain this kind of 
expenditure?
    In addition, the receiver issued a request for proposal for 
a 1-year contract to manage the medical services at the jail 
once the receivership ends in September 2000. The contract was 
awarded to individuals who were employed by the receiver at the 
time the proposal was submitted, raising the specter of 
impropriety in the receiver's procurement process. The benefit 
of the RFP is questionable, since it requests bids that would 
maintain the same services at the jail and therefore the same 
cost, thereby perpetuating the already high costs that were 
expended under the receivership.
    D.C. government can't afford these inflated costs and D.C. 
taxpayers shouldn't be forced to foot the bill if there are 
other cost-effective alternatives.
    Today we will be looking at what reforms, if any, still 
need to be enacted to comply with the judge's order. 
Additionally, the hearing will focus on what resources are 
needed to maintain the reforms which have already been 
instituted and to enact any additional reforms required for 
compliance with the court order so that the jail may return to 
the city's jurisdiction.
    We will hear from GAO. We will hear from Dr. Shansky; the 
receiver, John Clark; the corrections trustee; Erik Christian, 
the deputy mayor for public safety and justice. Karen 
Schneider, the special officer appointed by the U.S. district 
court, who refused to testify, requiring this subcommittee to 
issue its first ever subpoena mandating her appearance.
    I would now yield to Delegate Norton for any opening 
statement she wishes to make, and then we will move right on to 
the witnesses.
    [The prepared statement of Hon. Thomas M. Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T2581.001
    
    [GRAPHIC] [TIFF OMITTED] T2581.002
    
    [GRAPHIC] [TIFF OMITTED] T2581.003
    
    [GRAPHIC] [TIFF OMITTED] T2581.004
    
    Ms. Norton. Thank you, Mr. Chairman. I very much appreciate 
your initiative in calling this hearing and the way in which 
you have worked with me on this matter, in particular.
    Over a period of many years, the District of Columbia lost 
control over four agencies, but only after the courts had seen 
their orders violated for years. Judicial patience had 
justifiably run out. Medical services at the D.C. jail before 
us today were replete with violations and with inhumane 
conditions. Respect for even minimal levels of Constitutional 
rights compelled the action Judge William B. Bryant, a 
distinguished judge of the U.S. district court here, took to 
relieve the District of control of the medical function at the 
jail in 1995.
    Chairman Tom Davis and I, and the subcommittee, began our 
oversight of receiverships only in the wake of a precipitating 
event in one of the receiverships for which none of the actors, 
including the receiver, had any explanation or took 
responsibility, the death of an infant, Brianna Blackmond, 
committed to the care of the Child and Family Services Agency, 
under a receivership of the U.S. district court.
    Shortly after the infant died, Chairman Davis asked me to 
join him in requesting GAO investigations of all the 
outstanding receiverships in order to assure that 
accountability problems had not developed in the absence of 
regular public oversight to which city agencies in the District 
are subjected today.
    The Chair then commenced this series of hearings on the 
three receiverships that are still active, all of which have 
been subject to serious criticisms. Our own preliminary 
investigation has not been reassuring. We could not find 
evidence of significant use by our receivers of best practices 
of the kind required of District and Federal agencies, such as 
management and fiscal audits; procurement practices that foster 
fair and open competition; cost controls that reflect generally 
acceptable national or regional standards; or even Anti-
deficiency Act requirements universally applicable to 
government agencies to prevent overspending of funds that are 
not authorized and available.
    With the chairman, I then introduced H.R. 3995, the 
District of Columbia Receivership Accountability Act. The House 
passed H.R. 3995 unanimously, and the bill will be marked up by 
the Senate Governmental Affairs committee shortly.
    Even before the GAO reports were in, it is clear that, at a 
minimum, receivers, their court monitors, and special officers 
who stand in the shoes of agency heads and their supervisors 
must operate at least at the standards required of those who 
have been ousted from control of the agencies involved. The 
agencies were removed from District control to achieve 
improvements and higher levels of accountability, beginning 
with the receivers and their supervisors, who, by definition, 
are setting the example for the District as to how the agencies 
are to be run in the future.
    All of the receivership agencies originally had severe 
operational and service problems, but the concerns that remain 
differ. The jail medical receivership now before us has shown 
sufficient operational improvements to be scheduled to expire 
in August 2000, at the end of 5 years, pursuant to the court 
order establishing the receivership. However, the cost 
associated with these improvements would be astonishing to 
taxpayers and to any public official charged with 
responsibility for taxpayer funds.
    The GAO investigation Chairman Davis and I have requested 
is ongoing and unfinished, but three outside experts who looked 
at the results have raised serious questions concerning cost 
and procurement practices.
    First, and most recently, the D.C. Board of Contract 
Appeals found that challengers to the receivers' RFP had not 
met the heavy burden necessary to divest the contract under 
D.C. law, even though the receivers' own employees, while still 
employed by the receiver, had been awarded the contract to 
provide future services.
    What was significant was the unusually strong language of 
the board, which wrote, ``While the receiver asserts that he 
took steps that no offer was unfairly advantaged or 
disadvantaged, and, in particular, the procurement was designed 
to encourage outside companies, as well as employee-formed 
groups to participate, such actions are not apparent.''
    Second, the corrections trustee, a former assistant 
director for community corrections of the U.S. Bureau of 
Prisons, the largest in the country, has been charged by this 
subcommittee with assisting the entire corrections system with 
systemic management and financial reforms prior to the 
expiration of his tenure.
    In meetings with the receiver and the special officer, the 
corrections trustee repeatedly objected to the costs of the 
receivership and the RFP but was successful only in getting the 
cost lowered from $16 million to $12.5 million, a cost nearly 
three times the national average for medical services at jails 
in this country.
    Third, Faiver, Campau and Associates, reputable experts in 
the area of corrections health care, were commissioned by the 
corrections trustee to analyze the potential cost resulting 
from the RFP and winning bid. These experts found that the RFP 
issued by the receiver ``incorporates an administrative 
structure akin to that often found in a fairly large State 
corrections system rather than in a moderately sized jail.''
    These experts concluded that ``Nowhere in the country are 
we aware of a facility of comparable size that has such a top 
echelon of staff who are not significantly involved in direct 
patient care.''
    Confronted with cost figures so substantially above those 
found nationally and in similarly situated regional 
jurisdictions, and with sharply critical evaluations by outside 
experts, an explanation is necessary. This hearing is being 
held to give the receiver and the special officer the 
opportunity to respond and other witnesses the opportunity to 
elaborate and be questioned. Thus far, the only response 
regarding these costs we are aware of from the receivership are 
a letter from the special officer sent after I wrote to her 
about our concern, followed by a visit by the special officers 
receiver, and District correctional officials to my office for 
a meeting.
    In her letter, the special officer justifiably and 
appropriately warns of the difficulty of doing cost 
comparisons, but even so concedes that, using the available 
data, the costs of the contract issued by the receiver is 
almost twice the national average cited in the applicable 
surveys.
    She then cites the high administrative service cost which 
she asserts would not be found in the budgets of other 
jurisdictions. She also cites modifications that would reduce 
these costs to $12.92 per inmate per day, although that amount 
is still nearly twice the national average.
    I am in full agreement concerning all the problems 
associated with analyzing the data involved; however, today 
local governments and especially the District of Columbia, 
fresh from insolvency, no longer authorize the expenditure of 
taxpayer funds without even an attempt to justify costs in 
comparison to others with similar responsibilities.
    In the District, health care, in particular, requires our 
best effort at such attempts because more than 60,000 D.C. 
residents have no health insurance. Their health care continues 
to impose an enormous price on them, personally, on the health 
care indicators of residents, and on the D.C. government. A 
D.C. resident should not have to go to jail to get adequate 
health care and jail should not afford health care that far 
exceeds what is available to the average resident with and 
without insurance.
    The District government, which stands to inherit the costs 
of the jail medical receivership, has the task of meeting both 
Constitutional standards for the health care of people charged 
with crime and the health needs of ordinary citizens, most of 
whom are from families who work every day but must look to the 
District to design a way for them to meet basic health care 
needs.
    Ultimately, the District must take its responsibilities for 
both these sets of its residents more seriously than the city 
has in the past.
    I look forward to hearing today's witnesses and to 
approaching the issues before us as problems that can be solved 
with sufficient satisfaction to all concerned.
    Thank you, Mr. Chairman.
    Mr. Davis. Thank you very much.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]

[GRAPHIC] [TIFF OMITTED] T2581.005

[GRAPHIC] [TIFF OMITTED] T2581.006

[GRAPHIC] [TIFF OMITTED] T2581.007

    Mr. Davis. Thank you very much.
    We have been joined by the vice chairman of this committee, 
Mrs. Morella, who will make a brief statement, as well.
    Mrs. Morella. Thank you, Chairman Davis. I appreciate 
Ranking Member Norton for calling this very important hearing 
today to examine the status of the receivership of the District 
of Columbia's jail's medical and mental health services. I am 
hopeful that this examination will help to enlighten us about 
how best to deliver this service out of receivership and return 
it to the control of the D.C. government.
    Since Dr. Ronald Shansky was appointed the corrections 
medical receiver for the D.C. jail 5 years ago, much of the 
crisis has been averted. I am encouraged that many of the 
problems that were faced by the receiver have been successfully 
addressed. When the receivership ends in September, the goal 
will have been met for attaining for the inmates a 
Constitutional level of health care. Recognition and treatment 
of depressed and unstable inmates has turned around a dismal 
situation in the rates of suicide in the jail, the tuberculosis 
epidemic has been brought under control, and HIV and AIDS cases 
are identified and treated.
    Dr. Shansky has brought in qualified medical staff and the 
level of care provided to the inmates has been greatly 
improved. I am obviously very concerned, though, that the 
solution to the dire issues that face the jail can be sustained 
by the District. Are there alternative staffing solutions and 
resources that can be applied to this situation to sustain the 
improvements that have been made under the receiver's care?
    This level of care has been accomplished with medical costs 
and staffing levels that far exceed the national average. The 
receiver has not been held to sound financial practices and has 
not been accountable to the District government for its budget.
    I am further concerned that the request for proposal, the 
RFP, for a 1-year contract to manage the medical services at 
the jail once the receiver ends in September 2000, has resulted 
in a contract being awarded that maintains the staffing levels 
and medical costs endured under the receivership. If there is a 
more cost-effective solution, then that needs to be further 
explored.
    And so I hope this hearing today addresses these concerns 
and that, from what we learn, a suitable long-term solution may 
be received.
    Though the manner of care has improved over the past 5 
years in the D.C. jail, it is imperative that the jail be able 
to sustain a Constitutional level of services to the inmate.
    I thank you, Mr. Chairman, and yield back.
    Mr. Davis. Thank you very much.
    [The prepared statement of Hon. Constance A. Morella 
follows:]

[GRAPHIC] [TIFF OMITTED] T2581.008

[GRAPHIC] [TIFF OMITTED] T2581.009

[GRAPHIC] [TIFF OMITTED] T2581.010

[GRAPHIC] [TIFF OMITTED] T2581.011

[GRAPHIC] [TIFF OMITTED] T2581.012

    Mr. Davis. I want to call now our panel of witnesses and 
supporting witnesses to testify: Ms. Laurie Ekstrand, the 
Director of Administration of Justice Issues of the U.S. 
General Accounting Office; Ronald Shansky, M.D., the receiver; 
Ms. Karen Schneider, the Special Officer for the U.S. District 
Court for the District of Columbia; Erik Christian, the deputy 
mayor for public safety and justice; and Mr. Odie Washington, 
director, District of Columbia Department of Corrections as a 
supporting witness; and, of course, John Clark, District of 
Columbia Corrections trustee.
    As you know, it is the policy of our committee that all 
witnesses and supporting witnesses be sworn before they can 
testify, so if you would rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Davis. Thank you very much.
    To afford sufficient time for questions, if you'd try to 
limit yourself, we've read the testimony that has been 
submitted. We were here until 3 a.m., so we didn't have 
anything else to do. It doesn't always get read, but in this 
case it did.
    All written statements are going to be made part of the 
permanent record, so if you would try to dwell on the 
highlights that will give us time for questions and we can get 
you out of here earlier, as well.
    I'll begin starting with Ms. Ekstrand and then move to Dr. 
Shansky, Ms. Schneider, Mr. Christian, and then Mr. Clark.

 STATEMENTS OF LAURIE EKSTRAND, DIRECTOR OF ADMINISTRATION OF 
   JUSTICE ISSUES, GENERAL GOVERNMENT DIVISION, U.S. GENERAL 
 ACCOUNTING OFFICE; RONALD SHANSKY, M.D., CORRECTIONS MEDICAL 
    RECEIVER; KAREN SCHNEIDER, SPECIAL OFFICER FOR THE U.S. 
 DISTRICT COURT FOR THE DISTRICT OF COLUMBIA; ERIK CHRISTIAN, 
  DEPUTY MAYOR FOR PUBLIC HEALTH AND JUSTICE; AND JOHN CLARK, 
 DISTRICT OF COLUMBIA CORRECTIONS TRUSTEE, ACCOMPANIED BY ODIE 
   WASHINGTON, DIRECTOR, DISTRICT OF COLUMBIA DEPARTMENT OF 
                          CORRECTIONS

    Ms. Ekstrand. Thank you, Mr. Chairman.
    I am very pleased to be here today to discuss several 
issues concerning the District of Columbia receivership 
contract for medical and mental health services at the D.C. 
jail. Without further ado, let me get right to the four issues 
that we were asked to review.
    The first one is cost. Our comparison of budget data for 
medical services at the D.C. jail and comparable facilities in 
Baltimore City and Prince George's County indicated that D.C. 
jail's per capita costs are higher. Indeed, the officials to 
whom we spoke during our review agreed that D.C. jail provided 
certain medical services and had staffing levels that exceed 
those of other facilities. Of course, this drives cost.
    In relationship to staffing, the inmate-to-staff ratios, as 
reported by the Office of the Corrections Trustee, is 13-to-1 
at the D.C. jail, 74-to-1 in Baltimore, and 48-to-1 in Prince 
George's County.
    The fact that the D.C. jail provides fully staffed pharmacy 
and both mental and dental services onsite, whereas Baltimore 
and Prince George's County do not, provides some context for 
understanding some of the differences in the inmate-to-staff 
ratios.
    Most of the officials to whom we spoke cited the court-
ordered remedial plan as the primary reason why the D.C. jail 
provides enhanced medical services and has higher staffing 
levels than other jurisdictions. The trustee, however--and I'm 
sure he will address this himself--feels that adequate medical 
services could be provided with fewer staff and at lower cost.
    The next issue you asked us to review concerned acceptable 
levels of care for jail inmates. We found that there is no 
single threshold that determines what an acceptable level of 
medical services is at the jail. According to experts, this is 
the case because the acceptable level is related to the medical 
circumstances and situations that need to be addressed. It can 
also be a function of specific constraints such as court orders 
placed on a specific jail facility.
    Accreditation standards have been developed by several 
organizations, including the National Commission on 
Correctional Health Care. These standards define minimum 
recommended medical service requirements for jail to 
voluntarily obtain accreditation. When a facility seeks 
accreditation, experts review a broad range of factors related 
to the health of inmates and facility-related issues to make a 
decision concerning accreditation based on the application of 
standards to the specific jail setting. The standards then 
cannot be used as a simple check list to assess whether a 
facility provides an acceptable level of medical care.
    You also asked us to look at the effects of the contracting 
process on medical service costs. As you know, the current 
contract maintains the level of medical services and staffing 
at the levels already in place at the D.C. jail, but the 
current contract can be modified at any time. In addition, it 
can be re-competed at its current or scaled-back levels of 
service and staffing when the base year ends in March 2001.
    The solicitation that resulted in the current contract 
requested that offerors submit proposals that would maintain 
existing levels of service and staffing. These were referred to 
as comparison proposals.
    According to officials we spoke to, the District sought to 
maintain existing levels of service to ensure that the 
receivership is successfully terminated in August 2000, and 
control of the jail is returned to the District. The 
solicitation also encouraged offerors to submit alternative 
proposals for providing health services differently or more 
economically than they were currently provided.
    The Evaluation Committee rated all of the proposals and 
determined that none of the alternate proposals provided 
specific enough information to ensure that they would maintain 
the same level of medical services as would the comparison 
proposals; thus, the final recommendation of the committee was 
to endorse a comparison proposal. The committee's 
recommendation was sent to the receiver, who selected the 
contractor.
    Finally, let me turn to the issue of whether the failure of 
the receiver's employees to resign from their positions prior 
to being awarded the contract violates D.C. law or regulations.
    Under District personnel regulations, a District employee 
may make an offer on a contract, but generally cannot be 
awarded the contract while still in D.C. employment status. The 
firm that was awarded the contract to provide medical services 
at the D.C. jail was constituted of employees working for the 
receiver, not for the District government, thus they were not 
subject to these provisions of District law.
    We would note that the D.C. Contract Appeals Board ruled in 
May 2000, on a protest by a losing offeror to this procurement. 
The protestor asserted that the receiver showed bias in favor 
of the awardee, which was a company formed by the incumbent 
medical director. The issue of employees' failure to resign 
prior to the award was not raised in this protest. The Board 
denied the protest, finding that there was not proof of bias 
sufficient to challenge the award; however, the Board noted 
that certain of the receiver's actions gave an appearance not 
conducive to confidence in the fairness of the procurement.
    This concludes my oral statement, and I would be glad to 
answer any questions you may have.
    [The prepared statement of Ms. Ekstrand follows:]

    [GRAPHIC] [TIFF OMITTED] T2581.013
    
    [GRAPHIC] [TIFF OMITTED] T2581.014
    
    [GRAPHIC] [TIFF OMITTED] T2581.015
    
    [GRAPHIC] [TIFF OMITTED] T2581.016
    
    [GRAPHIC] [TIFF OMITTED] T2581.017
    
    [GRAPHIC] [TIFF OMITTED] T2581.018
    
    [GRAPHIC] [TIFF OMITTED] T2581.019
    
    [GRAPHIC] [TIFF OMITTED] T2581.020
    
    [GRAPHIC] [TIFF OMITTED] T2581.021
    
    [GRAPHIC] [TIFF OMITTED] T2581.022
    
    Mr. Davis. Dr. Shansky.
    Dr. Shansky. I, too, would like to indicate I appreciate 
the opportunity to appear before you, and I will try to be 
brief. I have submitted my written statement to you, as you 
indicated.
    At the time the receivership was created, I was contacted, 
and only after several phone calls reluctantly agreed to accept 
the responsibility. One of the reasons I agreed was that the 
District wanted me to assume that responsibility.
    When I took over in September 1995, the jail was a very 
chaotic place. In fact, it was in some ways very frightening, 
not just to me but to the medical staff and to the officer 
staff, especially, and to the inmates. Numerous officers came 
to me indicating that they were concerned that if they got 
injured or something happened there would be no response.
    As a result of my concerns and my overwhelming sense of 
responsibility, I chose to stay in the jail. I took a cell and 
I stayed there in order to make sure that nobody died.
    Over the course of the next couple years, slowly but surely 
we were able to recruit a staff that was able to provide 
services consistent with my mandate, which was the previous 
court orders.
    The entire process that I have been involved in has been a 
collaborative one with the District. This has not been a 
receivership that has in any way forced anything down the 
throat of the District. Quite the opposite. The District wanted 
me to assume this responsibility. I took it. I never felt this 
was my program or the court's program, it's the District's 
program. I am a temporary housekeeper trying to put things in 
order.
    The District indicated to me that it wanted to maintain 
services after I departed through a procurement process with a 
contractor. I agreed to do a procurement and drafted an RFP in 
complete collaboration with corporation counsel's office, the 
Department of Corrections, plaintiffs, special officers, and 
with input from the trustee's office. In fact, this RFP was 
about 6 months in the drafting, with comments included in it 
from probably a total of 10 or 12 different individuals, most 
of whom were lawyers.
    The procurement selection process we were very careful 
about. We wanted to make sure that the evaluation was a fair 
and objective one. As a result, a committee was put together 
completely independent of me. I had no say on who sat on that 
committee. I had no say in who they selected to assist them in 
their evaluation process. My only suggestion was that that 
committee, when it was created, have a majority of District 
Department of Corrections appointed people.
    The committee met. The RFP--the proposals were evaluated, 
and ultimately a not-for-profit group created by employees was 
selected. I did my own evaluation and I concurred. This was the 
lowest bidder. For many reasons we thought that this would 
guarantee the best value for the dollars spent.
    With regard to is the District getting its bang for its 
buck, which is a very legitimate question, the process is set 
up, first of all, so that, literally beginning now, the 
District can begin negotiating with the vendor on a second 
year, and if it chooses to reduce some services, eliminate some 
services, change how it wants the services staffed, it is able 
to do that.
    With a not-for-profit vendor, the unexpended moneys will be 
returned to the District, just as I returned them over the 
previous 5 years. We have always come in under budget, and I 
have every reason to believe that this contract will also come 
in under budget.
    With regard to the issue of employees being able to submit 
a proposal, that somehow it is unfair, every procurement that I 
am familiar with, once you are in the second round of 
procurements, has an incumbent, and that incumbent is never 
excluded from participating because they currently have the 
contract. That's not the way contracting is done.
    This group, because it was a first time for them, was at 
certain disadvantages in terms of their skills at writing 
proposals, etc. The particular group that was selected 
partnered with an experienced for-profit company to handle 
fiscal management. I believe that the District and I believe 
the Department of Corrections believes that the District has 
gotten the best value it could out of its procurement process, 
and I look forward to the termination of my receivership, 
hopefully within the next 60 days, so I can get on to other 
things in my life, but also so that the District can then 
assume direct responsibility and make whatever modifications, 
changes it wishes to based on changes in disease, based on 
changes in responsibilities.
    For instance, the sentenced felons are supposed to be going 
to the Bureau of Prisons. When that happens one of the two 
mental health units will be able to close down and there will 
be a substantial savings of at least a half a million to $1 
million. All of that is in process. When all of the prison 
inmates are ultimately sent to the Bureau of Prisons, there may 
be additional changes just based on that reality. So I have no 
doubt in my mind that over the next several years the budget 
and per capita costs of this particular contract are going to 
diminish significantly.
    I thank you for your time.
    Mr. Davis. Thank you very much.
    [The prepared statement of Dr. Shansky follows:]

    [GRAPHIC] [TIFF OMITTED] T2581.023
    
    [GRAPHIC] [TIFF OMITTED] T2581.024
    
    [GRAPHIC] [TIFF OMITTED] T2581.025
    
    [GRAPHIC] [TIFF OMITTED] T2581.026
    
    [GRAPHIC] [TIFF OMITTED] T2581.027
    
    [GRAPHIC] [TIFF OMITTED] T2581.028
    
    [GRAPHIC] [TIFF OMITTED] T2581.029
    
    [GRAPHIC] [TIFF OMITTED] T2581.030
    
    Mr. Davis. Ms. Schneider.
    Ms. Schneider. Mr. Chairman, Ranking Member Norton, and 
other Members, my name is Karen Schneider. I hold the position 
of the special officer, which is the special master, as that 
term is used in Federal rule of civil procedure 53. Judge 
William Bryant of the U.S. district court for the District of 
Columbia appointed my predecessor, Grace Lopes, to the position 
of special officer in 1993 for the purpose of assisting the 
court in the consolidated action captioned Campbell v. McGruder 
and Inmates of D.C. Jail v. Jackson.
    In Campbell, Judge Bryant had issued orders governing 
conditions and practices of confinement and care at the 
District of Columbia Jail. I was substituted as special officer 
in November 1997.
    Judge Bryant's order appointing a special officer in 
Campbell found that the District of Columbia had a long history 
of noncompliance with court orders regarding medical and mental 
health care at the D.C. jail, and that a special officer was 
necessary in order to assist the court to assure future 
compliance.
    I ask that Judge Bryant's order appointing a special 
officer be made part of the record. The responsibilities, 
powers, and limitations of the special officer in Campbell are 
detailed in this order. The special officer is a judicial 
officer whose principal responsibilities are to monitor and 
facilitate the District of Columbia's compliance with the 
remedial orders of the court and to report and make 
recommendations to the court regarding compliance.
    The order authorizes the special officer to informally 
confer with the parties on compliance issues and to attempt to 
fashion compromises among the parties, much as a judge might 
seek to mediate or settle disputes among parties.
    The order authorizes the special officer to conduct 
hearings and to submit proposed findings of fact and 
recommendations to the court.
    Following her appointment in April 1993, the special 
officer, with the assistance of experts, evaluated the medical 
and mental health services at the D.C. jail, and in September 
1993, issued a report regarding the compliance of those 
services with the court's earlier orders. In March 1994, the 
court, relying on the special officer's report, found the 
District in contempt. In January 1995, the court ordered the 
District to implement a remedial plan.
    On July 11, 1995, when the District continued in its state 
of noncompliance, the court ordered the appointment of a 
receiver to correct the deficiencies in the delivery of medical 
and mental health services at the jail. I ask that that order 
be made part of the record.
    Mr. Davis. Without objection, that will be made a part of 
the record.
    Ms. Schneider. The court's order detailed the history of 
the District's noncompliance and states that over the more than 
20 years of this litigation the court has attempted all 
measures, short of the appointment of a receiver, to obtain the 
defendant's compliance with its orders. The court finds that no 
other less-intrusive remedial measures will succeed in 
compelling the defendants to satisfy their court-ordered 
obligations.
    The July 11, 1995, order provides that the receivership 
shall expire 5 years from the date the receiver is appointed 
unless the court finds good cause to extend the appointment. 
The court also reserved the discretion to terminate the 
receivership at an earlier date if the special officer 
certified that the defendants are in compliance with all the 
orders of the court concerning medical and mental health 
services at the jail, and that management structures are in 
place to assure that there is no foreseeable risk of 
noncompliance.
    In August 1995, Judge Bryant appointed Ronald Shansky, and 
in September Judge Bryant entered a detailed order regarding 
the procedures for the receivership's exercise of power. I also 
ask that that order be included in the record. That order has 
governed the receivership over the last 5 years, and unless the 
receivership is extended by the court it will expire within 2 
months of this hearing.
    Since Dr. Shansky is a witness before this subcommittee, he 
is available to detail the specific activities in exercising 
the powers given by the court.
    I understand that this subcommittee is interested in the 
contract awarded by the receiver to the Center for Correctional 
Health and Policy Studies for the provision of health care 
services at the D.C. jail.
    My March 15, 2000, report to Judge Bryant regarding the 
receivership sets forth the process which led to the 
development of a request for proposal for that contract and the 
selection of the vendor for the award of that contract. I ask 
that that report be made part of the record.
    I understand that the members of the subcommittee wish to 
ask me questions. I previously have informed the subcommittee 
that there are constraints on the comments I can make which are 
imposed by the Code of Judicial Conduct for U.S. Judges. That 
code very clearly states that it is applicable to special 
masters like me. Decisions of the U.S. court of Appeals for the 
District of Columbia circuit, the U.S. Supreme Court, and other 
courts also have determined that a special master is a judicial 
officer and that there are limits on what judicial officers can 
say about a pending case.
    As I am sure this subcommittee knows, in most circumstances 
a judge would violate the ethical cannons of the Code of 
Conduct if she makes public comment about a case that is still 
pending before her. One of the reasons for that rule is that a 
judge's comments might suggest some pre-judgment or the 
appearance of pre-judgment of an issue that may later come 
before the judge for decision in the case.
    Since the Campbell case is still pending and I may be 
called upon to address issues in that case in the future, I may 
not be at liberty to answer all of the questions that are 
addressed to me. My counsel has submitted a letter to the 
subcommittee staff in which he elaborates on the legal 
authority imposing those restrictions on me. I ask that the 
letter be made part of the record.
    However, I will try, to the best of my ability, within 
those legal constraints, to be responsive and answer the 
subcommittee's questions.
    Thank you.
    Mr. Davis. Thank you very much.
    [The prepared statement of Ms. Schneider follows:]

    [GRAPHIC] [TIFF OMITTED] T2581.031
    
    [GRAPHIC] [TIFF OMITTED] T2581.032
    
    [GRAPHIC] [TIFF OMITTED] T2581.033
    
    [GRAPHIC] [TIFF OMITTED] T2581.034
    
    [GRAPHIC] [TIFF OMITTED] T2581.035
    
    [GRAPHIC] [TIFF OMITTED] T2581.036
    
    [GRAPHIC] [TIFF OMITTED] T2581.037
    
    [GRAPHIC] [TIFF OMITTED] T2581.038
    
    [GRAPHIC] [TIFF OMITTED] T2581.039
    
    [GRAPHIC] [TIFF OMITTED] T2581.040
    
    [GRAPHIC] [TIFF OMITTED] T2581.041
    
    [GRAPHIC] [TIFF OMITTED] T2581.042
    
    [GRAPHIC] [TIFF OMITTED] T2581.043
    
    [GRAPHIC] [TIFF OMITTED] T2581.044
    
    [GRAPHIC] [TIFF OMITTED] T2581.045
    
    [GRAPHIC] [TIFF OMITTED] T2581.046
    
    [GRAPHIC] [TIFF OMITTED] T2581.047
    
    [GRAPHIC] [TIFF OMITTED] T2581.048
    
    [GRAPHIC] [TIFF OMITTED] T2581.049
    
    [GRAPHIC] [TIFF OMITTED] T2581.050
    
    [GRAPHIC] [TIFF OMITTED] T2581.051
    
    [GRAPHIC] [TIFF OMITTED] T2581.052
    
    [GRAPHIC] [TIFF OMITTED] T2581.053
    
    [GRAPHIC] [TIFF OMITTED] T2581.054
    
    [GRAPHIC] [TIFF OMITTED] T2581.055
    
    [GRAPHIC] [TIFF OMITTED] T2581.056
    
    [GRAPHIC] [TIFF OMITTED] T2581.057
    
    [GRAPHIC] [TIFF OMITTED] T2581.058
    
    [GRAPHIC] [TIFF OMITTED] T2581.059
    
    [GRAPHIC] [TIFF OMITTED] T2581.060
    
    [GRAPHIC] [TIFF OMITTED] T2581.061
    
    [GRAPHIC] [TIFF OMITTED] T2581.062
    
    [GRAPHIC] [TIFF OMITTED] T2581.063
    
    [GRAPHIC] [TIFF OMITTED] T2581.064
    
    [GRAPHIC] [TIFF OMITTED] T2581.065
    
    [GRAPHIC] [TIFF OMITTED] T2581.066
    
    [GRAPHIC] [TIFF OMITTED] T2581.067
    
    [GRAPHIC] [TIFF OMITTED] T2581.068
    
    [GRAPHIC] [TIFF OMITTED] T2581.069
    
    [GRAPHIC] [TIFF OMITTED] T2581.070
    
    [GRAPHIC] [TIFF OMITTED] T2581.071
    
    [GRAPHIC] [TIFF OMITTED] T2581.072
    
    [GRAPHIC] [TIFF OMITTED] T2581.073
    
    [GRAPHIC] [TIFF OMITTED] T2581.074
    
    [GRAPHIC] [TIFF OMITTED] T2581.075
    
    [GRAPHIC] [TIFF OMITTED] T2581.076
    
    [GRAPHIC] [TIFF OMITTED] T2581.077
    
    [GRAPHIC] [TIFF OMITTED] T2581.078
    
    [GRAPHIC] [TIFF OMITTED] T2581.079
    
    [GRAPHIC] [TIFF OMITTED] T2581.080
    
    [GRAPHIC] [TIFF OMITTED] T2581.081
    
    [GRAPHIC] [TIFF OMITTED] T2581.082
    
    [GRAPHIC] [TIFF OMITTED] T2581.083
    
    [GRAPHIC] [TIFF OMITTED] T2581.084
    
    [GRAPHIC] [TIFF OMITTED] T2581.085
    
    [GRAPHIC] [TIFF OMITTED] T2581.086
    
    [GRAPHIC] [TIFF OMITTED] T2581.087
    
    [GRAPHIC] [TIFF OMITTED] T2581.088
    
    [GRAPHIC] [TIFF OMITTED] T2581.089
    
    [GRAPHIC] [TIFF OMITTED] T2581.090
    
    [GRAPHIC] [TIFF OMITTED] T2581.091
    
    [GRAPHIC] [TIFF OMITTED] T2581.092
    
    [GRAPHIC] [TIFF OMITTED] T2581.093
    
    [GRAPHIC] [TIFF OMITTED] T2581.094
    
    [GRAPHIC] [TIFF OMITTED] T2581.095
    
    [GRAPHIC] [TIFF OMITTED] T2581.096
    
    [GRAPHIC] [TIFF OMITTED] T2581.097
    
    [GRAPHIC] [TIFF OMITTED] T2581.098
    
    [GRAPHIC] [TIFF OMITTED] T2581.099
    
    [GRAPHIC] [TIFF OMITTED] T2581.100
    
    [GRAPHIC] [TIFF OMITTED] T2581.101
    
    [GRAPHIC] [TIFF OMITTED] T2581.102
    
    [GRAPHIC] [TIFF OMITTED] T2581.103
    
    Mr. Davis. Mr. Christian.
    Mr. Christian. Thank you. Good morning. My name is Erik 
Christian, the Mayor's deputy for public safety and justice. 
Good morning, Chairman Davis, Delegate Norton, Congresswoman 
Morella, and Congressman Horn. Thank you for the opportunity to 
testify before you today on the status of the current reform 
efforts undertaken by the D.C. Department of Corrections to 
improve medical and mental health services at the D.C. jail.
    In the first 15 months of the Williams administration, the 
District government has made great strides in instituting 
improvements to introduce accountability for each and every 
agency and employee in order to transform the government into 
one that is responsive to its citizens. This approach has 
already shown promising results in the first year and will 
continue to drive changes in years to come.
    When Mayor Williams took office, the management challenges 
the administrator inherited were daunting. Accountability for 
the District work force was rare, if not nonexistent. A deeply 
entrenched culture existed that was resistant to change, and, 
as we all know, there was infrastructure decimated by deferred 
maintenance and disinvestment and technology needs that were 
grossly inadequate.
    Now, the mental and medical health delivery system was no 
different. It was in need of repair. In fact, medical and 
mental health services, as well as other conditions at the D.C. 
jail, have been under court supervision for over 25 years.
    More recently, in 1993, a medical expert retained pursuant 
to court order to conduct an investigation and report on 
medical services at the D.C. jail concluded, ``The quality of 
medical services is deplorable, the physical condition of the 
medical area horrible, and the infirmary is a disgrace.''
    At the same time, significant deficiencies were also found 
by a mental health expert retained pursuant to the court's 
order to investigate and report on mental health services. 
These reports led to the development of a remedial plan the 
defendants were ordered to implement in January 1995.
    Unable to implement the remedial plan, U.S. District Judge 
Bryant, on July 11th, entered an order appointing a receiver to 
run medical and mental health services at the jail. In its 
order appointing a receiver, the court found that the District 
had violated the court's order and, among other violations, 
they had failed to properly conduct sick call, failed to 
operate a chronic disease clinic, failed to implement a quality 
assurance program, failed to maintain a full-time health 
services administrator at the jail, failed to properly conduct 
intake, failed to properly provide meaningful access to 
specialty services, failed to appropriately and professionally 
respond to life-threatening emergencies, failed to properly 
provide medical guides, and failed to keep their own kitchen 
and medical clinic clean.
    Moreover, the population the District is serving at the 
jail has a high rate of HIV/AIDS, a high rate of tuberculosis 
and other infectious and chronic illnesses such as 
hypertension, heart disease, epilepsy, diabetes, and asthma, 
and a significant percentage of inmates requiring treatment for 
preexisting injuries such as prior gunshot wounds and chronic 
disabilities. Moreover, the jail had experienced a rash of 
suicides, and there is a high percentage of inmates who suffer 
a series of mental health problems.
    But what is the solution for these problems? The solution 
is to instate the same solid management practices that this 
administration is applying to other troubled areas.
    Throughout his campaign for Mayor, Mayor Anthony Williams 
repeated the mantra, ``One government, good government, and 
self government.'' These six simple words comprised his vision 
for the city. One government is a government where all 
functions that have been placed by the courts under the control 
of a receiver are returned to the control of this government 
under the Mayor's leadership an with oversight of the 
District's City Council. This administration is working to 
create one government and commit it to terminating court-
imposed receiverships. Good government is an efficient and 
effective government. Good government facilitates the goal of 
one government and will ensure that the city can and does 
provide human and proper treatment to its jail population; that 
it complies with the law; and that a structure is instituted 
that not only makes sure that we end this receivership but 
assures that we do not in the future revert back into 
receiverships in the dictates of the court order.
    This government is committed to exploring all ways to 
maximize efficiency and effectiveness. If this contract or any 
government contract of service is not efficient or effective, 
we will work to correct, modify, or replace it.
    The District wants to work with the Congress, the GAO, and 
the court to identify ways to continue to reduce costs while 
maintaining the improved quality of health services required by 
the law and recommended by correctional health experts to 
address the unique medical and mental health needs of our 
population.
    Ending receivership is a clear priority of this 
administration. As this administration continues to apply the 
principles of good government, we must be successful in our 
efforts to bring this receivership and all receiverships back 
under the authority of a Mayor with oversight from the District 
City Council.
    The District is one city and our citizens deserve a unified 
government. This city deserves the democracy and home rule that 
receiverships prevent. We need to continue to perform at this 
high level so that we, as the District government, can 
demonstrate that we can provide all of our citizens, even those 
that are incarcerated, the highest and finest level of 
professional services at competitive rates.
    Plain and simple, we need to return to one unified 
municipal government in the District under the leadership of 
officials that are accountable to our voters. By returning 
District agencies that are currently under receivership back to 
local control, democracy will be driving government here in the 
Nation's capital.
    Thank you, Mr. Davis and committee members.
    Mr. Davis. Thank you very much.
    [The prepared statement of Mr. Christian follows:]

    [GRAPHIC] [TIFF OMITTED] T2581.104
    
    [GRAPHIC] [TIFF OMITTED] T2581.105
    
    [GRAPHIC] [TIFF OMITTED] T2581.106
    
    [GRAPHIC] [TIFF OMITTED] T2581.107
    
    [GRAPHIC] [TIFF OMITTED] T2581.108
    
    Mr. Davis. Mr. Clark.
    Mr. Clark. Good morning. Thank you, Mr. Chairman, Ranking 
Member Norton, members of the committee. It is a privilege to 
appear before the committee today at this important hearing. Of 
course, I have submitted a detailed statement and I will try to 
just briefly summarize that here.
    It is not any secret that for 2\1/2\ years I have been very 
concerned on behalf of the District about the exorbitant costs 
of the receiver's operation. I've made my views known to all 
the appropriate parties and tried to work to resolve matters. I 
have not been particularly successful.
    So what are my concerns?
    To summarize, when I assumed this new position I was 
charged, Mr. Chairman, and directed by various authorities in 
the District and the Congress, including this committee, to 
take seriously my role of financial oversight in protecting the 
funds provided for corrections operations both by the District 
government and the Congress. I assure you I've taken that 
charge very seriously. Therefore, I was stunned when I first 
visited the jail and reviewed its budget in the fall of 1997 
and compared it to my experience as a warden of a similar 
facility, a Federal facility in Miami about three-quarters the 
size, and also my experience as Assistant Director of the 
Federal Bureau of Prisons for 6 years, where I had policy 
oversight for all BOP urban jails.
    In short, the receiver had about 150 FTEs, compared to 
about 33 at my facility in Miami, and a $16 million budget 
compared to the equivalent of about a $4 million budget at my 
similar facility. Further, I was puzzled that when national 
averages for correctional health care are consistently reported 
at about $7.50 a day per inmate, it had cost in the District's 
jail in excess of $20 a day.
    As I show in my testimony, in my written testimony, on the 
chart on page 6, if this contract runs its full length, the 
price to the District of the receiver's tenure and the follow-
on contract that he has awarded will be over $120 million 
versus the national average for that period of about $45 
million.
    So the question now arises as to whether it is useful or 
fair to make comparisons of the receiver's costs and staffing 
to other jails. Some have said that we cannot make such 
comparisons. I assert that of course we can, although certainly 
it is important to make proper allowances for unique variables.
    Every manager, whether in private business or public 
management, has to subject themselves to comparisons. We have 
to be held accountable to explain differences and 
discrepancies. That is particularly true in the face of such 
differences as we face here, which are not, Mr. Chairman, 
differences at the margins but are an order of magnitude 
problem.
    The District simply cannot afford such extravagance. I'm 
not here to question that the receiver has remedied the former 
crisis and has installed at the jail a Constitutional level of 
care for the prisoners, but at what cost to the District?
    Apart from the past 5 years, my other concerns, primary 
concerns, at least, are that the District is now stuck with an 
expensive contract in the amount of $68 million over the next 5 
years unless some action is taken.
    The RFP, further, is not performance based, requiring the 
vendor to supply a certain level of service and care, giving 
only lip service to cost containment in certain narrative 
statements. But, where it counts, in the evaluation factors 
delineated in the RFP, de minimis value was given to cost 
containment.
    I would refer the committee to table five on page 13 of my 
testimony, which is reproduced from the RFP. As one could see, 
the total weight of price is listed at 26 percent of the total 
score. Itself, a low weight but not unprecedented.
    However, on closer inspection it is clear that element A, 
overall price, was only one of five elements scored in the 
price category, worth approximately 5 to 10 percent of the 
total score of the bid proposal, to be given little more weight 
than such vague elements as rational budget, salary structure, 
and fringe benefits or budget presentation. In other words, the 
lowest price could easily be more than counterbalanced by a 
much higher bid--just in this price category--which was simply 
more rational or showed a better package of benefits or was 
presented more attractively.
    In my extensive experience overseeing Federal Government 
contracts, price is price. Here the issue was totally blurred.
    Where it counted, the real message was that price is not 
that critical, and so the message went out. Everyone wanted to 
please the receiver, and to do that a rich staffing level was 
expected.
    The message was heard by the bidders in the form of $12 to 
$14 million bids for a 1,650 bed operation. The well, indeed, 
had been poisoned against mainstream price and staffing bids.
    In fact, to allow for a true comparison to contracts 
awarded by other jurisdictions, about $2.5 million should be 
added to the receiver's contract cost to account for outside 
medical expenses covered by other contracts but here borne by 
the DOC. Therefore, making a true comparative cost figure for 
medical services at the jail, it's about $15.2 million. But 
getting away from averages and rates to more recent comparable 
examples of actual contracts for medical services, I think Mrs. 
Morella would be interested to know that in Baltimore and in 
the Baltimore Detention Center--and several surrounding 
Maryland facilities, a contract was procured recently for all 
the services, all-inclusive services for those facilities, for 
6,500 inmates, for $19 million. That's $19 million for four 
times the number of prisoners that here in the District we are 
paying $15 million to provide services.
    Again, this week in the clips I noticed in Delaware a 
contract was awarded for more than 6,000 prisoners for $14.2 
million. Again, the same money for four times the number of 
prisoners.
    A final example I'd give, in a recent report, another 
report by GAO in April noted that the Federal Bureau of 
Prisons, in its only private contract award in a facility--
actually, several facilities together in Texas--awarded a 
contract for $10 million for 5,400 prisoners. That's several 
million dollars less for three times the number of prisoners.
    Compared with the jail, these are differences in the order 
of magnitude of three or four times, not at the margins.
    I am not asserting that these jurisdictions are identical 
to the District's needs or that we should be among the cheapest 
in the country, but we should be somewhere near the mainstream.
    Finally, everyone has to be concerned, in my estimation, 
that the receiver did not voluntarily recuse himself from being 
the sole procurement official in what turned out to be a $68 
million award, particularly when it became clear that his 
professional associates and employees were forming a group to 
bid.
    Now, I've never objected that the employee group was 
bidding, but I did strongly suggest that the entire procurement 
be turned over to the D.C. Office of Contracts and Procurement. 
This was declined by the receiver and the special officer--in 
my estimation a violation of the most fundamental principles of 
public contracting, the perception of a fair and level playing 
field.
    In summary, a wonderful opportunity has been missed for the 
District over these past 5 years, as the receiver's legacy 
leaves no appropriate or usable template for the future of 
medical services at the jail. I'm afraid that the city must 
start from scratch to rebuild this mishandled jail medical 
services operation. Since we cannot change the past, in my 
estimation the District must immediately, since the clock is 
ticking, begin the development of a new procurement process to 
replace the current contract at the first option date next 
March.
    Thank you, Mr. Chairman. I look forward to the committee's 
questions.
    Mr. Davis. Thank you.
    [The prepared statement of Mr. Clark follows:]

    [GRAPHIC] [TIFF OMITTED] T2581.109
    
    [GRAPHIC] [TIFF OMITTED] T2581.110
    
    [GRAPHIC] [TIFF OMITTED] T2581.111
    
    [GRAPHIC] [TIFF OMITTED] T2581.112
    
    [GRAPHIC] [TIFF OMITTED] T2581.113
    
    [GRAPHIC] [TIFF OMITTED] T2581.114
    
    [GRAPHIC] [TIFF OMITTED] T2581.115
    
    [GRAPHIC] [TIFF OMITTED] T2581.116
    
    [GRAPHIC] [TIFF OMITTED] T2581.117
    
    [GRAPHIC] [TIFF OMITTED] T2581.118
    
    [GRAPHIC] [TIFF OMITTED] T2581.119
    
    [GRAPHIC] [TIFF OMITTED] T2581.120
    
    [GRAPHIC] [TIFF OMITTED] T2581.121
    
    [GRAPHIC] [TIFF OMITTED] T2581.122
    
    [GRAPHIC] [TIFF OMITTED] T2581.123
    
    [GRAPHIC] [TIFF OMITTED] T2581.124
    
    [GRAPHIC] [TIFF OMITTED] T2581.125
    
    [GRAPHIC] [TIFF OMITTED] T2581.126
    
    [GRAPHIC] [TIFF OMITTED] T2581.127
    
    [GRAPHIC] [TIFF OMITTED] T2581.128
    
    [GRAPHIC] [TIFF OMITTED] T2581.129
    
    Mr. Davis. We'll have a number of them. I'm going to start, 
I think, with Mr. Horn, who has another commitment. He has come 
in. We'll start the questions with him.
    Let me just make one comment. I think, Dr. Shansky, my 
impression, just sitting here and listening to everything, is 
you were brought into a very, very tough job and you turned the 
place around in terms of meeting the criteria and everything 
else. You are a doctor. I mean, you're not a manager. That's 
not your job, and so on. And when it came to the bid, you 
wanted to make sure you could get some people in place that 
knew how to do the job and they were bidding. If they got it, 
great. If they didn't, at least you knew you had somebody 
competent. That's my take on it, and that's appropriate.
    Now, I think you had some cost problems that go beyond what 
you perceived or what your expertise is, and that's always the 
difficulty when courts take over these is that courts are not 
managers, they are not administrators, and as we get ready to 
transition we've got some tough questions to ask.
    That's my perspective on it, if it makes you feel better.
    Ms. Norton. Would the gentleman yield on that point?
    Mr. Davis. I'd be happy to.
    Ms. Norton. I think the chairman makes an important point. 
If we are showing concern--and this is before we get to our 
colleagues who are going to ask questions, because I want to 
simply make a point and not ask a question. In a real sense, we 
in the Congress are confronted with the same problem when it 
comes to HMO and managed care, and one of the reasons that 
doctors have lost control of medical services is that if, in 
fact, you turn over the bank to them, they will exercise the 
best of their professional judgment, and what has happened as a 
result is all of us who are not in jail are now in HMOs and 
managed care precisely because we are trying to press costs 
down, and we've taken these costs from medical judgment, alone, 
and that turns out apparently not to have been the case here.
    Mr. Davis. I'm going to yield to Mr. Horn for questions.
    Mr. Horn. Thank you, Mr. Chairman. I hope I haven't 
disrupted the committee too much, but I have two questions, and 
I'd be particularly interested in all of your views on this.
    To what extent in the D.C. jail do we have literacy 
education? That's one.
    To what extent do we have appropriate mental health 
services in the jail and when they are out of jail in the 
community? Can you just give me a thumbnail of what you experts 
have looked at there--literacy and mental health.
    Ms. Ekstrand. Sir, I'm afraid I can't answer the question 
about literacy because it was outside the scope of what we were 
asked to look at.
    In terms of mental health, they do have onsite facilities 
at the jail for mental health care.
    Mr. Horn. Well, how good it is? I think Dr. Shansky is 
probably the expert, isn't he, on this?
    Ms. Ekstrand. I'm sure that he is more expert than I am.
    Mr. Horn. Well, Dr. Shansky, I think you are the expert. 
What is the answer to it?
    Dr. Shansky. First of all, with regard to literacy, there 
are literacy problems, but I am--and we have a health educator 
who works with the inmates trying to teach them at different 
levels of literacy skills how to take responsibility for their 
own health.
    I think the Director of Corrections would be better able to 
comment on literacy, overall.
    With regard to mental health, the D.C. jail is a unique 
facility in the country. The D.C. system is a combined prison 
and jail system. There are only five jurisdictions that I am 
aware of that are combined prison and jails under one single 
Department of Corrections.
    The District, long before I came, decided to put its only 
inpatient mental health services at the D.C. jail, so if you 
were an inmate and became unstable you got transferred to the 
inpatient unit at the D.C. jail, and when I came on board not 
only were there a lot of legitimately mentally ill people, but 
there are also individuals who would manipulate in seriously 
destructive ways, maybe to come from Lorton, VA, into the 
District.
    We had to put together a program that identified mental 
illness at intake, and we've done that successfully. I am 
pleased to report we've had no successful suicides in over a 
year-and-a-half, compared to, before I took over, an average of 
a successful suicide every other month.
    Mr. Horn. Can I ask how many unsuccessful suicides you had?
    Dr. Shansky. Actually, the number of serious attempts has 
been dramatically reduced. Those instances are pretty 
occasional now.
    The thing that you need to remember is----
    Mr. Davis. Dr. Shansky, let me just stop you. Mr. Horn 
health as got to leave, but what we'd like you to do is provide 
this for the record, because I think he'd like to have this on 
the record and I think it is an important piece of information.
    Dr. Shansky. The thing that you need to be aware of is, as 
you are aware, the mental health program for the District is 
also under receivership. There are many people who are released 
from jail who, were they to be maintained adequately in an 
outpatient program in the community, would not, in all 
likelihood, come into the jurisdiction of the criminal justice 
system. In fact, my staff have participated with others in an 
effort to create a mental health court that will divert some of 
these individuals away from incarceration, provided that they 
maintain their therapeutic program that has been prescribed by 
the appropriate professionals.
    There is no question, because we service the prison system, 
also, that the number of mentally ill inmates, seriously 
mentally ill inmates at the jail is dramatically higher than 
anywhere else in the country.
    We know that when the Federal Bureau of Prisons ultimately 
takes responsibility for all of the sentenced felons the number 
of seriously mentally ill inmates in the jail is going to 
dramatically go down, because we have a substantial number of 
inmates who are in the mental health units at the jail who are 
sentenced felons.
    In fact, we proposed early on that if the chronically 
mentally ill who were stable and were sentenced felons were to 
be transferred to the Bureau of Prisons--and at one point they 
had agreed to take them 2 years ago--that would result in an 
immediate reduction in cost of between a half a million and $1 
million.
    We know that by the end of 2001 all of the sentenced felons 
will be the responsibility of the Federal Bureau of Prisons, 
and clearly the contract situation we've created allows the 
District to negotiate with its vendor literally at will to 
reduce staffing levels in services provided based on the 
population needs that it is responsible for at any given point 
in time.
    Mr. Davis. Thank you.
    Does anyone else want to address that?
    [No response.]
    Mr. Davis. Let me ask Ms. Schneider a question. You 
received a letter inviting you to testify. You refused. You 
stated that to do so would be a violation to the Code of 
Judicial Conduct.
    After consultation with the U.S. House of Representatives 
Office of the General Counsel, the subcommittee concluded that 
you were not prohibited from testifying at this hearing.
    We made it abundantly clear to you that we really had no 
intention of influencing any judicial proceedings or discussing 
any quasi-judicial functions you could exercise in your role as 
special officer. We repeatedly offered to meet with you to 
dispel any concerns you had about testifying. Finally, on 
Monday your attorneys came to this subcommittee for what we 
thought was to be a meeting in good faith. It turned out to be 
anything but that. Present at the meeting were the House 
general counsel, the majority and minority counsel for the 
Committee on Government Reform, subcommittee counsel, and 
majority and minority subcommittee staff. They agreed that your 
presence at this hearing was imperative.
    Your attorneys were uncooperative, and therefore this 
subcommittee issued its first subpoena in the 6-years that I 
have chaired this, mandating your appearance today. You know 
how hard it is to get Mr. Waxman and Mr. Burton to agree on a 
subpoena.
    Ms. Schneider, you've gone to incredible lengths to avoid 
this hearing, and yet it has come to my attention that during 
the 2-weeks since you received the invitation letter you have 
been consulting with the media. From the subcommittee's 
conversations with you, we couldn't ascertain what your 
relationship to the receiver is, but in this article in the 
Post today you have been quoted as saying that Shansky has not 
been a Lone Ranger.
    How could you talk to the media and yet say you couldn't 
talk to Congress?
    Ms. Schneider. Mr. Chairman, I first must say that my 
concerns about publicly commenting on this matter relate to my 
belief that I am bound as a judicial officer to the Code of 
Judicial Conduct. I did not talk to the press about that. That 
is apparently taken from a letter that I wrote to Mr. Odie 
Washington. I have made no comments to the press and have never 
spoken to the press about this matter due to my concerns about 
the Code of Judicial Conduct and my publicly speaking.
    I do not want to be in a position to compromise this 
litigation. This litigation is almost 30 years old. I may be 
called upon by the judge or by the parties to make 
recommendations to the judge. It will compromise my ability to 
do that to comment publicly about the merits of this case.
    Mr. Davis. So you are testifying here under oath that you 
have not spoken to any Post reporters about this?
    Ms. Schneider. I have not spoken to the Post reporter. I 
did not state that comment to the Post reporter. I was 
contacted by a Washington Post reporter and I informed him that 
I could not discuss the matter with him.
    Mr. Davis. So let me just understand this. The only comment 
you made to the Post reporter was that you couldn't discuss 
this matter with him?
    Ms. Schneider. That's correct.
    Mr. Davis. OK. Thank you.
    Ms. Norton.
    Ms. Norton. Dr. Shansky, you have repeatedly noted that one 
of the problems with the--that you encountered in the D.C. jail 
necessitating greater expenditures is that there are problems 
relating to the medical condition of these inmates greater than 
in other jurisdictions. What is your evidence that the District 
jail inmates are sicker than inmates in New York, Baltimore, 
L.A., and other large cities in the United States?
    Dr. Shansky. Well, for instance, just to take one example, 
HIV's seral prevalence. The District's seral prevalence rate is 
about 10 percent, 9 to 10 percent at last survey. New York is 
similar--actually, a little higher. Baltimore's I'm not 
familiar with. L.A. County is substantially lower.
    Ms. Norton. What is it in Chicago?
    Dr. Shansky. Chicago, it is about 1 to 2 percent.
    Ms. Norton. That's HIV/AIDS?
    Dr. Shansky. That's correct. That's just one.
    Ms. Norton. You know, we have a somewhat higher HIV/AIDS 
rate than some other cities, but your testimony is that you 
have evidence that the costs that were required in D.C. are so 
much greater because the inmates are substantially sicker than 
they are in other large American cities.
    Dr. Shansky. What my statement is that the reasons for the 
increase in cost are multifactorial. Epidemiology of disease 
and prevalence of disease is just one factor. Another factor is 
the decision by the District to house all of its acutely 
mentally ill, even from the prison system, at the D.C. jail. 
Had it chosen not to do that----
    Ms. Norton. If you took the acutely mentally ill out, what 
would be the cost of this contract?
    Dr. Shansky. The mental health program, as described, that 
would probably reduce the program by a couple million.
    Ms. Norton. You have testified--well, let me ask you 
concerning your testimony. The contract that has been let, is a 
contract that could last as long as 5 years?
    Dr. Shansky. Well, it is a 1-year contract with a 
possibility of four option years, each of which is to be 
negotiated between the Department of Corrections, the city 
administration really, and the vendor. And, as I indicated, the 
city is the appropriate jurisdiction, I think, to determine 
what kinds of services, what types of services should be 
needed.
    As I indicated, we know that when the Bureau of Prisons 
takes all the sentenced felons the whole mental health program 
is going to be dramatically scaled down. Even if that is done 
in the middle of the year, the Department can renegotiate with 
a vendor and change in the middle of the year the staffing and 
other expenditures that are in the contract.
    So we set it up flexibly enough so that the Department and 
the city administration will taper the services and 
expenditures to its perceived needs.
    Ms. Norton. Indeed, that is certainly the case. One of the 
reasons why collaboration with Mr. Clark was important--and you 
seem to have been willing to collaborate with the District, 
which seems to have been willing to do anything you said--but 
one of the reasons that collaboration with Mr. Clark was 
necessary is precisely the kind of transition that you speak of 
with respect to mental health.
    For example, if you were to take the couple of million 
dollars out, you'd still be left with the cost of these 
services twice the national average, but if the point was to 
collaborate because we are in transition, I can't understand 
why an objective observer who comes from the Bureau of Prisons 
would have been somebody you didn't even want to hear nor did 
Ms. Schneider apparently want to hear, because it is hard to 
detect any oversight by her of you.
    Dr. Shansky. Let me----
    Ms. Norton. So if there is no oversight by her, and Clark 
comes in as somebody charged by us and a Presidential appointee 
to look at management and financial reform, I cannot understand 
why the District of Columbia and Ms. Schneider and you, Dr. 
Shansky, wouldn't have used that opportunity, an opportunity 
that comes precisely from the Congress, to try to collaborate 
and perhaps go back to the court with a revised notion of what 
might be necessary here.
    Dr. Shansky. Let me correct the record. Neither the 
District nor the special officer of the court have done 
everything that I wanted. That is not the way the process has 
worked. We have negotiated from day one how to implement, how 
to design services, how to create the proper program that the 
District wants. It has been a very fair and open and candid 
series of discussions we've had over 5 years.
    I did not get everything. Everything is not done exactly 
the way I wanted. I realized from the beginning this is not my 
program, it is the District's program, and I have worked very 
closely----
    Ms. Norton. Dr. Shansky, you gave us no indication until 
you've just spoken of how those negotiations resulted in your 
getting less than you wanted. Would you care to give some 
examples?
    Dr. Shansky. Initially we talked about providing certain 
kinds of services in certain ways when we proposed the budget, 
based on what the remedial plan required. There were different 
interpretations. We participated with the corporation counsel's 
office, and the budgets each year, in essence, were negotiated 
around what needed to be required.
    Each year the process took place. And, as you can see, each 
year the budget was scaled back, and each year we returned 
moneys to the District.
    Ms. Norton. How did the budget go down from $16 million to 
$12 million? Was that a voluntary act on your part? Did you cut 
back on your part by yourself in your own judgment?
    Dr. Shansky. It was a collaborative effort between myself, 
the corporation counsel's office, the Department of 
Corrections, special officer, and plaintiffs.
    Ms. Norton. Mr. Clark, what role did you play in that 
process?
    Mr. Clark. Well, as I mentioned, when I first came in I was 
quite stunned by this level, although I think, you know, to be 
fair to Dr. Shansky, the $16 million level in 1997 included 
$1.5 million or an extensive amount of a 1-year grant, I think, 
money from the Marshals for some equipment and some other 
factors there, so I think his true budget was somewhere in the 
$14.5 million range that year.
    But, on the other hand, there hadn't been that much of a 
reduction, and I don't know why he made decisions. But I know 
that when I came in and learned of this, I started to raise 
serious concerns with both him and particularly with Ms. 
Schneider and with the District, and I think that had some 
significant influence on lowering that budget.
    Ms. Norton. Dr. Shansky and Ms. Schneider have indicated 
that the District can always contract for services for a lower 
amount. This receivership for 5 years was supposed to be 
returned to the District so that the District could take it off 
the shelf and run it, and if that is not the case then I don't 
understand what a receivership is about.
    Dr. Shansky. Just to set the record straight, that is the 
case.
    Ms. Norton. All right, but----
    Dr. Shansky. At the end of August----
    Ms. Norton. But when this matter goes before the City 
Council of the District of Columbia I can guarantee you that it 
will be very hard to justify this level of cost, given the 
other pressures on the D.C. government.
    Both of you have indicated that the District is free to 
reduce the cost. This, of course, will take some considerable 
re-engineering to make sure that the new contract takes into 
account the very quality concerns that resulted in the District 
being ousted from jurisdiction, while at the same time meeting 
the District's budget requirements.
    This is precisely the expertise that the D.C. government 
lacks, and I submit that Mr. Washington clearly lacks now when 
he says, ``We're getting all we paid for,'' and clearly shows 
no indication that he wants to reduce these costs at all. He 
loves these costs. He loves this contract.
    So I don't understand why, after 5 years, you are giving 
the District back a contract that almost surely will have to be 
re-engineered, unless the Mayor of the District of Columbia is 
willing to pay considerably more for jail costs than he has 
shown a willingness to pay above the national average for costs 
for other residents. I do not understand how you have spent 
your time, if it is to say, ``You can take what I've done, 
throw it out, re-engineer it, and bring the cost down.'' Why do 
we need you in the first place?
    Dr. Shansky. I believe that----
    Ms. Norton. That was your job, to----
    Dr. Shansky. Let me just indicate----
    Ms. Norton [continuing]. Give us back a cost-efficient----
    Dr. Shansky. Let me just indicate I believe I was needed in 
order to save lives, and I tried to do that, and I believe I 
was successful.
    With regard to the competence of the city administration, I 
have every confidence that they have the expertise, the know-
how, and the commitment to tailor a program based on their 
perception, the city's perception of what needs and what 
services should be provided. I have every confidence in them, 
and I will so report that to the judge.
    Ms. Norton. Well, of course you have confidence. One of the 
reasons I would have confidence in them is they're getting a 
re-engineered program, a program that has been fixed. It is 
hard for us to understand how you can fix a program that leaves 
us this for out of the range of average services.
    Mr. Chairman, I will pass and come back.
    Mr. Davis. Thank you very much.
    Mrs. Morella.
    Mrs. Morella. Thank you.
    I'd like to first of all direct a question to Ms. 
Ekstrand--and this was picked up by Mr. Clark--the differences, 
the disparity with regard to Baltimore, Prince George's County, 
and the District of Columbia. Could you tell me, from the GAO 
study, what are the differences in the kinds of medical 
services and problems that you found in Baltimore and Prince 
George's County compared to the District?
    Ms. Ekstrand. We do know that there is 24-hour-a-day 
pharmacy onsite at the D.C. jail and that is not the case in 
Baltimore City, not the case in Prince George's County.
    We did also focus on mental health services, and again 
mental health services are enhanced in D.C. compared to Prince 
George's County and Baltimore City.
    We did not have the opportunity in the time we had to do 
this review to go through item-by-item to make that comparison, 
but those are two of the larger items.
    Mrs. Morella. Are you kind of in that statement sort of 
justifying the fact that the District of Columbia costs that 
much more, the pharmacy and the mental health?
    Ms. Ekstrand. Well, I'm just making the point that the 
enhanced services and enhanced staff means that it costs more 
money. We did not have the opportunity in the few weeks that we 
looked at this program to determine whether there were other 
aspects that affected costs, such as efficiency or salary 
levels. Those were outside the scope of what we could look at 
since the end of May. But at least we were able to identify 
some factors, and those factors had to do with enhanced 
services.
    Mrs. Morella. Thank you.
    Let me ask Mr. Clark to pick up on that. With all the 
experience that you have had with the Federal system and in 
Miami, do you see--I know the difference is, like, four times 
the difference in terms of price, and we know it is basically 
because it is staffing, but can you see an equation between the 
kinds of services provided and the cost? Does that make up for 
it?
    And then I'm curious. Has anybody looked at, like, 
recidivism rates? I mean, can you show something for this 
difference?
    Mr. Clark, would you like to comment? And then if anyone 
else would like to comment?
    Mr. Clark. Well, two or three points.
    I think everybody would agree that one difference, one 
legitimate difference, is the service provided to the sentenced 
felons, which is a group which will go to the Federal Bureau of 
Prisons within the next year or so. I think Dr. Shansky, while 
he noted that the total mental health cost may be $2 million, I 
think he testified a couple of times that when the felons go 
that would reduce the cost by a half a million to possibly $1 
million. I wouldn't argue with that. Other than that, I don't 
see any--the services that the inmates are being provided in 
Baltimore, whether it is pharmacy, mental health, or all the 
other services, meet Constitutional standards. They meet 
accreditation standards. They've all been accredited in those 
facilities. So the total package of services I don't think is a 
problem in those facilities in Baltimore or in many other 
places around the country.
    And I'd like to make what I think is an important 
distinction. Higher staffing levels do not equate directly to 
improved services. At a certain point you reach a point of 
diminishing returns, and adding more staff members on the 
evening shift or adding additional nurses, pharmacists, or 
whatever, does not significantly improve the services. So once 
you've met a basic level, adding additional staff has marginal 
benefits, in my estimation.
    Mrs. Morella. I have kind of confirmation of what you are 
saying, and that is a quote from a company, Faiver, Campau and 
Associates, ``Nowhere in the country are we aware of a facility 
of comparable size that has such a top echelon of staff who are 
not also significantly involved in direct patient care.'' 
That's quite a----
    Dr. Shansky. Congresswoman Morella, could I respond to 
that?
    Mrs. Morella. Of course, Dr. Shansky.
    Dr. Shansky. That particular consultation, which was 
solicited by the trustee, was done purely by paper. There was 
no interviewing. In fact, that particular consultation was 
completely inaccurate.
    All of the staff, virtually all of the staff that he refers 
to as being 100 percent administrative are spending a 
significant percentage, 50 percent or more of their time, 
providing direct services. So it isn't the case that these 
people are purely doing administrative functions. He never 
found that out because he never interviewed anybody.
    Mrs. Morella. Have you--recognizing all of that, do you 
feel--and knowing that you have made some reductions, putting 
this all together, do you feel you could reduce the number of 
staff?
    Dr. Shansky. It is my view----
    Mrs. Morella. And enhance efficiency.
    Dr. Shansky. It is my view--right now we are in the process 
of completing the renovation, so efficiencies just physically 
are difficult. That should be finished by the end of October. 
And it is my view that, in fact, there can be some reductions, 
and we've already talked about it with the vendor. The District 
has talked about it. And I have every expectation that for the 
next contract there will be significant reductions in 
expenditures.
    But I believe those are the District's decisions, and I 
have attempted to take, to a great extent, besides taking 
leadership from the court, also from the District because it is 
ultimately their program.
    Mrs. Morella. We have a Government Performance and Results 
Act, you know, where we require our agencies and say, ``OK, now 
what have you accomplished, not so much what your mission is 
and what your modus operandi are.'' It seems to me that the 
system could certainly use a Performance and Results Act 
requirement.
    Dr. Shansky. We have built exactly those performance 
measures into this request for proposal. It is the first one 
that I am aware of--and I was responsible for issuing request 
for proposals for 12 years for the Illinois State prison 
system, the first system ever to privatize. The reality is that 
we have put in performance measures, not just ensuring that 
certain processes are completed, like intake processing, but 
that the degree of control of chronic illnesses is such that 
morbidity and hospitalization are prevented. All of that is 
built into this RFP. It is unquestionably performance based.
    Mrs. Morella. OK. I know my time has elapsed, and I thank 
you.
    Mr. Davis. Let me try to put a perspective. I would much 
rather be here talking now about overstaffing and high salaries 
than I would a situation that we couldn't correct. I just put 
that in perspective.
    This looked like an impossible situation at the time you 
took it over and you turned that around, so that is understood 
and that is good.
    But, for those of us that have to operate within the 
confines of government, which is transparent, which has limited 
salaries and everything else, you know, this violates all the 
rules, and it violates all of the traditional rules of 
government because we were not--you didn't have political 
oversight. You had oversight from a judiciary branch. And 
that's where you go back into the political spectrum and it 
goes back to the city that is not ready to transition, and 
that's why we are asking these questions.
    Dr. Shansky. I believe it is ready for transition. The 
contract is in the midst of its first year. The Department can, 
beginning to work right now with the vendor, restructure or 
shift or move or----
    Mr. Davis. It's a lot more ready to transition now than it 
was when you took it over. No question about it.
    Dr. Shansky. There's no question.
    Mr. Davis. So I'd put that in perspective.
    Dr. Shansky. There is no question about that.
    Mr. Davis. But I think you would concede and I think Mr. 
Clark and the GAO and others who have testified make it very 
clear that the payment for what were getting is very, very high 
by any normal governmental standard.
    Dr. Shansky. And the District has the opportunity to make 
decisions about what it wants to pay for and what value it is 
getting for the dollar.
    Mr. Davis. Of course.
    Dr. Shansky. And that's why I think this is a perfect 
situation in terms of the closure of this receivership within 
the next----
    Mr. Davis. And that's why we are holding the hearing. We 
need to understand that, and if the city had these costs in 
every part of its government and couldn't afford it, it would 
be a lot better run city, but that's a different issue.
    I'm just trying to put it in perspective, and you don't 
need to be overly defensive, but I just--and I can understand 
why you are that way. The main mission was accomplished, and it 
looked almost impossible when you took it over.
    My wife is a doctor, too, so I understand. She's tighter on 
finances than I am, but I just want to put that in perspective 
for you.
    Now, let me ask a few questions here for Ms. Schneider.
    What are the major duties you perform on a regular basis as 
the special officer?
    Ms. Schneider. My duties as a special officer is to ensure 
the compliance of the court's orders. That can be done through 
mediation with the parties on various issues, through observing 
and reporting to the court, and making recommendations.
    Mr. Davis. When you look at your priorities, cost has not 
been at the top in terms of trying to do it within the 
restrained budget. You're really looking at turning this around 
and----
    Ms. Schneider. Well, my mandate is precisely to ensure that 
the court orders that are in existence are followed, and that 
is by the order that appoints me. It requires me to ensure that 
those orders are followed.
    Mr. Davis. OK. So the court orders, no staffing levels are 
required? That's a judgment call that you would make?
    Ms. Schneider. There were staffing levels required in the 
initial remedial plan, and there has been a process in this 
litigation where those staffing levels have been reduced each 
year through negotiations with the party and a budget that was 
submitted to Judge Bryant each year for consideration.
    Mr. Davis. But did you ever make any comparisons to other 
jurisdictions' costs and services while the plan was being 
worked out among the parties, for example?
    Ms. Schneider. Well, my mandate was to ensure that the 
court order, as it existed, was followed.
    Mr. Davis. All right. Now, I think I understand how we got 
to where we are, and I don't know that anybody is culpable or 
anything, I just want to try to understand that cost was really 
the kind of last thing you'd look at as you try to work your 
way through a very, very difficult situation when you took this 
over, and I can appreciate that.
    The corrections trustee reports that you appointed the 
receiver as the sole appeal authority on the procurement over 
his very own decision. Can you explain that decision?
    Ms. Schneider. Excuse me, that was not my decision to 
appoint the receiver as the sole----
    Mr. Davis. Whose decision was that?
    Dr. Shansky. When we drafted the RFP, we had discussion 
with counsel on a variety of things. One of the issues that 
came up was to what extent we could parallel, if you will, D.C. 
procurement law.
    Now, the reality is D.C. procurement law refers to and is 
applicable to D.C. agencies. I was clearly not a D.C. agency 
head, so, strictly speaking, D.C. procurement law wasn't 
applicable to a procurement that I was going to do, and I 
couldn't, in my procurement, somehow require the chief of 
procurement to be responsible. I had to accept that 
responsibility myself.
    Mr. Davis. And your argument now is, as the city 
transitions they can renegotiate.
    Dr. Shansky. Yes. Exactly.
    Mr. Davis. Then that makes my next question for Mr. 
Christian and Mr. Washington. What mechanisms do you have in 
place to renegotiate the contract and control costs at this 
point?
    Mr. Washington. Thank you, Mr. Davis.
    First of all, I want to simply say that I, like many in the 
District, love the services that are currently being provided, 
but we all have a problem with cost, as has been the case for 
the last 5 years, but I have been impressed by the fact that 
the cost continues to go down every year and I am convinced 
that costs will continue to go down.
    The best way to do that is to return control of medical 
services and mental health services back to the District, where 
we will be able to negotiate specific services and further 
reduce the cost. I am confident the that District of Columbia 
will be able to do that.
    Mr. Davis. If you don't do that, don't come running to 
Congress. You'll have to go somewhere else to find the money. 
I'll let you make that argument with the Mayor, but I think 
that's--and that's really the bottom line at the end of the 
day.
    Mr. Washington. And clearly that is understood, Mr. 
Chairman.
    Mr. Davis. Do you have any mechanisms in place right now? 
Can you give us any idea where you might be headed on that, 
what cost controls you put in effect, what some of the services 
are being provided that you might not be able to provide, or 
anything?
    Mr. Washington. Well, one of the things that we will be 
doing is to hire our own medical expert to oversee the 
contract. That will be our person to evaluate the services that 
are being provided and to determine what services can be 
reduced. That is a position that will be established.
    Mr. Davis. I'll tell you what. Instead of putting you on 
the spot today with that, maybe you can get back with the 
committee and talk to us as you transition about what some of 
your thoughts are with specificity. Would that be amenable?
    Mr. Washington. Yes.
    Mr. Davis. I think that would be helpful to us.
    Mr. Christian, do you have anything to add on that?
    Mr. Christian. Again, Mr. Chairman and Council members, we 
are trying to maintain the quality of services that have 
already been provided at the most efficient and effective 
manner, so we would be looking at that contract during this 
period and when it expires.
    Mr. Davis. Why don't you try, let's say in the next--within 
10 days could you get us back something in terms of your 
thoughts on transitioning this back to something that is 
affordable?
    I would just say one thing: the city--I mean, not you, 
personally--you weren't probably with the city then--but the 
city had this thing really messed up. It has been fixed from a 
services point of view, but now we have to contain costs, and 
we are just eager to understand how you are going to do that, 
how you are going to get there, because if these costs continue 
it just doesn't mesh with the culture of this city or any other 
city when you take a look at the other staffing ratios. So we 
want to see how we make this transition.
    If I have to put an emphasis anywhere, it is on making sure 
the city isn't sued again and that we are fulfilling our 
Constitutional obligations, so you have to do that. You can 
pick and choose, and I think you have a better system here than 
you have in Baltimore or you have in Prince George's or the 
others, but you are paying a lot more for it, too, and what 
that balance is, we're just eager to know what your thoughts 
are on that. That's all I'm trying to get at.
    Let me now yield to my ranking member, Ms. Norton, for a 
few more questions.
    Ms. Norton. Mr. Christian and Mr. Washington, you are aware 
that, as this hearing is going on, the Appropriation Committee 
is having a hearing in which it is looking precisely into 
whether or not the District is not only improving its services 
but is improving the management of those services. The 
Appropriation Committee is very much in sympathy with what this 
committee is doing and has made that known.
    Are you prepared, when the appropriation comes before the 
Appropriation Committee next year, to come forward with a 
contract with these costs in it?
    I ask that of you, Mr. Washington, because you said to the 
Washington Post, ``I think we are getting what we are paying 
for,'' therefore I don't see any inclination on your part even 
to begin to reduce costs, and so must assume that when you go 
before next year's appropriation you will not be recommending 
to the Mayor that any changes be made. Therefore it would be 
the Appropriation Committee or the Council that would have to 
do the oversight here.
    Mr. Washington. Well, actually, Congresswoman Norton, I 
think it would be just the opposite. I think we will very much 
be prepared to discuss cost reductions.
    One of my primary concerns, as a relatively new director of 
this department, is to ensure that the D.C. Department of 
Corrections does not revert back to 30 years of neglect in our 
department. We have a wonderful opportunity to get from under a 
30-year court mandate and oversight of the D.C. Department of 
Corrections and return control to----
    Ms. Norton. When this program comes back, who will be the 
officer who has control over it?
    Mr. Washington. Well, the Director of the Department of 
Corrections will be responsible for medical and mental health 
services.
    Ms. Norton. That's you, isn't it?
    Mr. Washington. That's correct.
    Ms. Norton. And you want control over this and you want it 
back from the receiver?
    Mr. Washington. Absolutely.
    Ms. Norton. So you have been cooperating with the receiver 
in order to make sure that you, in fact, get this program back.
    Mr. Washington. Yes. I think the quickest way to reduce 
cost is to return control to the Department of Corrections and 
negotiate future contracts. I think we have a good level of 
services. That's important to ensure that we do not have 
continued court oversight, and further reduce costs.
    Ms. Norton. Dr. Shansky and you have said the same thing. 
That's a dangerous thing to say to this Congress. You know, the 
chairman and I have kept this matter before this committee. In 
doing so, we have made sure that we focus not on the courts. 
Neither of us believe it is inappropriate for courts to take 
over functions that are in the shape these functions are in, 
but there are many who disagree with us. To the extent that 
there is testimony before the Congress that courts don't have 
any obligation to contain costs when trying to reform matters 
in receiverships, you endanger the whole notion of court 
receiverships and non-interference by the Congress of the 
United States. I think you should be told that.
    This matter could just as easily be in the Judiciary 
Committee, and if it were there would be a very different kind 
of hearing. Indeed, the Congress has already intervened into 
receiverships. You do not help those of us who believe that the 
courts, particularly with respect to jails and to prisons, have 
done a service to the country in taking over such systems. You 
do not do a service when you say that it is quite all right for 
the receivers to rack up any costs they want to and then give 
it back to the people who couldn't manage in the first place to 
bring down the cost, and that is what I am hearing from you, 
Mr. Washington, and that is what I'm hearing from the two 
receivership officers.
    Dr. Shansky. Let me correct what may be a misperception on 
your part. My mandate was to put the program together and to 
save lives, but it was also to be fiscally responsible. We have 
been audited. We will be audited again at the end of the 
receivership. The audits were court mandated and arranged by 
the city. We negotiated and discussed each budget, literally at 
times every position and every service. We have returned money 
to the District each year that was unspent. I don't think that 
is a record of someone who feels that a receiver has no 
responsibility to look at cost factors. Quite the contrary. We 
have been sensitive to the cost concerns, and I think the 
District has also been sensitive, as has the special officer.
    Ms. Norton. Dr. Shansky, it was precisely because there was 
no audit of the kind that D.C. agencies are required to engage 
in and only a two-page audit spreadsheet presented that this 
House unanimously passed a bill requiring that full-scale 
audits be done not after the receiver is through but on an 
annual basis while there is a receiver so that the receiver is 
not held to a standard less than the agency who has given up 
the function would be held.
    Dr. Shansky. Once again let me correct the record. The 
audit that was to be performed was determined by the city it 
was supposed to be done under the existing city contract by a 
firm, Peat Marwick, which was doing all the city agencies. I 
had no say in determining how that audit was done, who was 
doing it, or what it consisted of.
    Ms. Norton. Just a moment. Did not the court require an 
audit?
    Dr. Shansky. Yes. That's correct.
    Ms. Norton. Ms. Schneider.
    Ms. Schneider. That's correct.
    Ms. Norton. Did you regard that as the kind of audit that 
was satisfactory?
    Ms. Schneider. There was a court order requirement for the 
audit, and the audit was----
    Ms. Norton. Do you know what an audit is, Ms. Schneider? Do 
you know the kind of audit that District agencies, in fact, 
routinely have to go through?
    Ms. Schneider. This was an audit that was done. It was 
organized by the city, by the agency that was doing the city 
audits.
    Ms. Norton. Mr. Washington, are you aware of the kind of 
audit--who organized it? Who was the officer? Was it Mr. 
Washington?
    Dr. Shansky. I believe this preceded Mr. Washington.
    Ms. Norton. Are you aware of the kind of audits that the 
new auditor requires when he does an audit of D.C. agencies?
    Dr. Shansky. I wasn't made aware----
    Ms. Norton. Do you think that this is representative of the 
kind of audit that agencies should go through?
    Dr. Shansky. Let me indicate, after approximately 2 weeks 
of providing all financial records, all invoices, all bank 
statements, etc.--and, again, this was an audit arranged by the 
city by the contractor with a contract to audit city agencies--
no one was more disappointed than we were to get, for the cost 
of that audit, which I'm told was about $40,000, that two-or 
three-page statement, believe me.
    Ms. Norton. Again, I'm not sure what Ms. Schneider's job 
is, but obviously the District wants to get out of the 
receivership. The District apparently felt it had no stake in 
the kind of audit these agencies have to go through.
    I repeat, I am concerned if the District now has to figure 
out how to reduce these costs, because the District is going to 
have to, in fact, design an RFP that meets quality concerns and 
also the cost concerns that the Council and the Mayor will 
raise.
    When I look at the number of physicians, no matter how we 
get into this contract, questions are raised that any public 
official--you, Mr. Christian; you, Mr. Washington; you, Ms. 
Schneider; you, Mr. Shansky; and certainly the GAO--should have 
wanted to question.
    For example, 15 doctors serving something over 1,600 
inmates here, five serving something over 3,000 inmates in 
Baltimore----
    Dr. Shansky. Those figures, by the way, are inaccurate. We 
do not have 15 physicians, and I'm not sure----
    Ms. Norton. How many do you now have?
    Dr. Shansky. We have----
    Ms. Norton. You obviously had it at one point. How many do 
you have now?
    Dr. Shansky. We have, I believe, nine.
    Ms. Norton. Compared to five for more than twice as many in 
Baltimore, three times as many as these now----
    Dr. Shansky. Again, you are quoting figures from a report 
in which the data was demonstrated to be inaccurate. Now, it is 
very hard to have a discussion----
    Ms. Norton. Give me the accurate data. I'm giving you the 
data you told me. It was nine. Prince George's, same size as 
D.C.----
    Dr. Shansky. Again, inaccurate data.
    Ms. Norton [continuing]. One M.D. for 78 compared with one 
for 15 here. What are your figures now?
    Dr. Shansky. When we talked with the officials at these 
agencies, they told us, first of all, in the Baltimore contract 
they said the numbers were part of an overall contract and it 
was very difficult for them to attribute the costs related to 
the jail part of that contract.
    Ms. Norton. I'm just asking you about doctors now.
    Dr. Shansky. I don't recall the specifics of the doctors, 
but----
    Ms. Norton. I'm just saying that Prince George's, which is 
the same size as we are, the same kind of population, one 
doctor for 78 inmates compared with one for 15 inmates here, 
and we're supposed to say, ``That's fine. The quality has 
improved, so don't ask any more questions.''
    Mr. Davis. Let me recognize Mrs. Morella.
    Mrs. Morella. Picking up on our discussion today, I notice 
another difference probably among many of the correctional 
institutions in health care is the on-and offsite staffing, and 
I note in your testimony, Dr. Shansky, you mentioned that the 
offsite consists of, like, a physician and a nurse at D.C. 
hospital.
    Dr. Shansky. Yes.
    Mrs. Morella. I'm wondering whether this--and I'm going to 
get to you in a minute, Mr. Clark, whether this occurs in other 
hospitals, too. But it was interesting, as I was re-reading 
your statement, where you indicated that they are there also to 
make sure that they don't stay there too long, to control. And 
I was thinking of the problems that patients have with HMOs, 
you know, where you've got a gatekeeper that says, ``You can 
only stay 3 days,'' or whatever it may be. That's the same kind 
of thing you're doing.
    Would you like to just comment on how effective you think 
it is having a----
    Dr. Shansky. That's a very legitimate concern. We added 
this, because when I came on board--and all of the Lorton 
facility, as well as the jail and the Correctional Treatment 
Facility use D.C. General as its main resource. One of the 
things that I found was corrections patients admitted to D.C. 
General were distributed among a variety of house officers, 
most of whom had their major focus on their non-incarcerated 
patients, and so the concern wasn't that people were being sent 
out too quickly, as might be the case with an HMO, but they 
were literally forgotten or neglected and allowed to stay way, 
way too long.
    We talked to the District. The District felt that it would 
be a cost-effective investment to make sure that we had one 
doctor in control of all of the patients admitted to D.C. 
General from Lorton, from CTF, as well as the jail.
    There is no question we dramatically reduced the length of 
stay because our doctor focuses on those patients and gets them 
out in as timely a manner as possible.
    Now, when the prisons close down the city may decide, 
because there are fewer patients in the hospital, maybe it 
doesn't want to support that service. But, given the number of 
admissions from all of the Department of Corrections 
facilities, it made sense to put a doctor in charge of that 
care, and therefore reduce the length of stay.
    This was particularly important because the D.C. General 
Hospital became a public benefits corporation and began billing 
the Department of Corrections. Up until that time, which was 
roughly 1998, there was no transfer of funds, as far as I 
understood. But when they began doing that we talked with the 
Department, and the Department said, ``Yes, we don't want to be 
paying for unnecessary services, for people who are just laying 
around after they've received maximum hospital benefit.'' It 
was on that basis that we instituted this program.
    Mrs. Morella. Mr. Clark, would you like to comment on 
whether this is being done any other place and what you think 
about the efficiency? I mean, it is a pretty convincing case if 
you are reducing the time and you are watching them.
    And then I would like to also ask you about this pharmacy. 
Have you found that there are other places where--I mean, is it 
common to have a pharmacy connected with a jail of that size? 
And then would it be better to--I mean, more cost effective to 
have a contract with a vendor for that kind of service? I don't 
know much about it.
    Mr. Clark. Three issues, I guess, Mrs. Morella.
    The first one: I generally agree with Dr. Shansky on the 
advisability of having a physician or--well, principally a 
physician--whose loyalty or whose concern is primarily directed 
to the Department of Corrections providing some oversight to 
those cases at D.C. General or any of the other outside 
hospitals.
    On the other hand, I have a significant problem, as I 
mention in my written testimony, with the way the RFP, the 
second RFP was restructured to remove the responsibility for 
outside medical from the vendor so that the incentive, which 
had been built in and which is common in these contracts 
everywhere, as far as I can tell--and within the last few days 
we've contacted eight or nine States who contract out all or 
part of their services, and they all require the vendor who is 
providing the jail or prison health care to also be responsible 
for the outside medical care. If you don't do that, you reduce 
the incentive or there is a reverse incentive in terms of 
providing the treatment in-house. And there is almost an 
incentive on marginal cases to move that case to the local 
hospital when then it becomes an expense to the Department of 
Corrections.
    That was our experience in the Federal system under 
contract facilities, and we went to total outside contracts, 
first with a catastrophic limit of $5,000 or $10,000, and then 
I know more recently they have removed that catastrophic limit.
    So I have, as I have testified in my written statement, a 
major concern that it was not in the economic interest of the 
District to remove that responsibility from the vendor.
    Your next question was about the pharmacy. It is not 
uncommon to have in-house pharmacy operations. I think in these 
contracts that is more of a market question. In other words, 
you ask to have a certain level of pharmacy services provided, 
and in some cases it is done more on an operation, in-house 
operation, sometimes more on a regional kind of a basis.
    Again, the problem that I have with the requirements in 
this contract are not that it is in-house; it is that they 
have, in my estimation, much exceeded the numbers of staff who 
are commonly needed to run a pharmacy in a correctional 
facility.
    I forget your third question, ma'am.
    Dr. Shansky. Could I respond on the--I think it needs 
edification, the offsite service responsibility.
    The usual arrangement that I have seen is where you build 
in some sort of risk sharing, as alluded to by Mr. Clark, with 
the vendor. We had every intention of doing that, and we 
intended to negotiate with the selected vendor the conditions 
of that risk sharing.
    Some time in the fall of 1999 we were informed by 
corporation counsel's office that, if we were to want this 
contract to be assigned to the District, we could not engage in 
those kinds of discussions with a vendor at the time of 
selection, so that we were locked into whatever was in the RFP 
if we're going to leave this in, No. 1.
    No. 2, the vendors came up with per diem rates in their 
proposals that were, in fact, not as good as the per diem rate 
that the District had at that time, so we felt this was not in 
the district's interest.
    The other thing is that the vendor's proposals were very 
divergent. One vendor was very low on the outpatient side, very 
high on the inpatient side. Another vendor was very low on the 
inpatient side, very high on the outpatient side. None of them 
justified their numbers.
    We felt the wisest thing to do, particularly since we had a 
doctor in place and that doctor controls both admissions and 
discharges, so the risks that Mr. Clark is alluding to are 
taken care of by our having our person in control of those 
patients, which isn't the case with most contracts with 
correctional facilities, and on that basis we felt the wise 
thing to do, the thing that was most prudent, was to take the 
offsite services out in the first year and then, for the second 
year, the Department of Corrections and the Mayor and the 
director of Corrections could, if they chose to, negotiate the 
kind of risk-sharing and offsite responsibilities that they 
felt were in the District's best interest. That's why we made 
those decisions.
    Mr. Clark. I'd like to respond to that.
    One of the issues here is on this performance-based 
contracting and whether or not there was an incentive built 
into the contracting for the bidders to be innovative and 
creative. In this area, a couple of the bidders bid 
significantly below the District's cost, one of them way below. 
I would call that innovation or creativity. In this case, Dr. 
Shansky chooses to say that the companies were confused and 
somehow didn't understand. Well, these companies bid on these 
contracts all over the country. They understand. They knew what 
they were doing. And for some reason--again, I've got a chart, 
I think, that compares the bids on page 16 of my testimony that 
makes that point.
    Dr. Shansky. Let me respond that the numbers were not 
justified. There was no basis for the numbers.
    Mr. Davis. Dr. Shansky, let Mr. Clark finish before you 
interject, OK?
    Dr. Shansky. OK.
    Mr. Clark. Again, I think this is another example where 
creativity and innovation were removed or not rewarded, and 
whether or not the receiver in his role as the procurement 
official, understood or felt that the background development of 
how these numbers came to be may have been justified, the 
company bid, in one case, was $1.3 million, which was about 
half the District's estimated cost.
    When you bid, if the bid is accepted, then you are going to 
have to live with that, and to me that's innovation. It's not 
confusion.
    Dr. Shansky. Let me just indicate we selected the lowest 
bidder, No. 1. Within the finance category, lowest bid was 
considered the determining factor, and that was the largest 
single factor of any of the factors considered.
    With regard to the offsite services, had we been able to 
negotiate with a vendor at the time of selection, we would have 
stuck with it. When we were told by corporation counsel 
contract lawyers that we could not do that, we felt it was 
potentially dangerous for the District to enter into a contract 
based on numbers that had no justification.
    What we didn't want was a vendor not hospitalizing people 
in order to meet the bottom line, which was inappropriate, that 
they had proposed and the District suffer the consequences of 
that sort of gatekeeping.
    Mrs. Morella. Dr. Shansky, I just want to say that I think 
that this hearing has brought together a lot of the issues that 
have been smoldering, and I hope that what will happen is not 
only we will continue to be updated as we move along and get 
out of the receivership but that there will be some compromises 
worked out so that, you know, I think some of the things we've 
said and that we've listened to could be worked out, so I guess 
in that sense of moving ahead for the correction system and the 
accountability and all, this has been a great meeting.
    I yield back the remainder of my nothing time.
    Mr. Davis. Mrs. Morella, thank you.
    Let me make a couple of comments, and then I'm going to--I 
mean, I think we get the gist of what has happened. I think 
everybody has had their say here and we understand.
    What concerns me now looking ahead is, is the city ready 
for prime time? Are they ready to take this over, because I've 
seen very little oversight from the city during this time 
except that they are eager to take back the control, and, 
frankly, I'm not sure I am comfortable with that.
    Mr. Clark, what is your judgment on that? Is the city--can 
they innovate these--have they shown the oversight initiatives 
and the like that show they have any understanding of how they 
can reduce these costs and maintain a level of service that 
will be acceptable Constitutionally?
    Mr. Clark. Well, I know that Director Washington is working 
to step into the--to have the Department step into the role of 
oversight of the contract, but what I--and I guess this is 
partly why I got into the uncomfortable position that----
    Mr. Davis. Let me just interject, obviously they can spend 
what they are spending and it will be fine, but that has other 
ramifications city-wide at this point.
    Mr. Clark. Absolutely. I mean, this is money that could be 
spent for schools or police or pot holes.
    Mr. Davis. Well, you have people that are working two jobs 
trying to support kids that have no medical care, and the 
people who are in jail are getting much, much better care, and 
if that is the city's priority, but I don't think it is.
    Mr. Clark. I think what I found when I came in almost 3 
years ago was that the city felt impotent in the face of this 
receivership. This is what--this was the sense that I got from 
the Department of Corrections director and other officials 
there, and, frankly, from the corporation counsel. That in the 
face of this long suit and so on, which had many legitimate 
aspects, obviously, they didn't feel that they could stand up 
to the receiver on these issues, and that's, frankly, why I, in 
my independent position, felt that I had to.
    Mr. Davis. Frankly, I don't think they could have stood up 
to him. I don't think they had the knowledge and I don't think 
they had the background or they had the competence to do it, 
and if you look at what had happened, you know, to this 
previously when they had it and took a look at what was 
happening around the rest of the city and the priorities, the 
city had to develop it. I understand that. I mean, it cost a 
lot of money to turn this around, probably more than if we had 
been a little more cost conscious. We could have done this a 
little cheaper. But we are here where we are today and we have 
something we are not worried about in terms of meeting the 
Constitutionality test and the like.
    The difficulty now is, from a budgetary point of view, 
making this transition, and I am, frankly, concerned about the 
city's--I've asked them for some guidelines and they are going 
to send union something within 10 days, and the proof of the 
pudding is in the eating. I hope we see something of a 
substantive nature.
    But that's our concern. Let me just say that if you think 
this hearing is tough, you want to go see Mr. Istook and the 
appropriators. I guarantee you--Ms. Norton is not going to be 
there. She's your friend. I think at the end of the day she 
wants this thing to work out. You just won't get the money, and 
then we could be right back to where we were. We want to get 
this stuff solved here at the authorization level, and the way 
you do that is you show us a plan, you show us it is not going 
to be the same program you have today because you are not going 
to have the money, but we just want to see it. I just don't get 
the sense here that we are ready to do that as a city.
    Mr. Clark. No. I think the focus--I mean, I think, 
unfortunately, you are right. The focus within the Department 
has been to be ready to take over the oversight of the 
contract, but I don't know that there is--that anybody--again, 
and this feeling of sort of impotence, that anyone has felt 
that they were in a position to start trying to re-engineer 
this receivership's operation.
    Mr. Davis. Well, just for----
    Ms. Norton. Mr. Chairman, could I just comment on just that 
point?
    Mr. Davis. Sure.
    Ms. Norton. The lost opportunity here, it seems to me, why 
the committee and the President and the Congress insinuated Mr. 
Clark into the matter was that there was a management and 
financial expert, so that you had, on the one hand, a doctor, 
and the doctor's job is to deal with patients, you had a 
receiver, a monitor. She also isn't in the management business, 
and we understood that. And we were clear, and I have been 
clear with Mr. Washington that the way to round this out was to 
take this expert who had the second-highest position in the BOP 
and make a synergy and it could all have worked.
    What is most disturbing to me, Mr. Chairman, is that 
somehow or the other an adversarial relationship developed 
there and his suggestions were considered not to be relevant, 
and therefore your question as to whether the District prepared 
to do it is an important one because Mr. Clark's tenure is 
running out and I'm not sure who then is to be the expert, 
except that the city is going to have to hire some experts. Mr. 
Washington has already said they're going to have to hire a 
physician to help them monitor it, whereas I wanted something 
off the shelf, because we sure paid a lot for what we are 
getting back here.
    Mr. Davis. And I don't want to dwell on what we paid. I 
think we have been through that. We don't need to beat a dead 
horse.
    The bottom line is we took an agency here that was in awful 
shape, terrible shape, and that at least has turned around. 
Fundamentally, that's what the task was. That's what the court 
wanted to do. I just don't think we need to go back on all the 
money that was spent and those kind of issues. I don't think 
that serves any purpose except transitioning now. The city has 
to have a little bit more than just taking it over, and ``we 
think we can do it.'' They've got to show some vision. They 
need to show some accountability. That's what we're going to be 
waiting to see, and we're going to watch it very closely.
    Ms. Norton.
    Ms. Norton. Well, I just want to be clear that what the 
chairman said about the appropriation hearing--and I mentioned 
it before--is a shot across the bow. There is no question that 
if the Council gets these costs there will be many questions 
raised, and the time to deal with them is now.
    Mr. Shansky, what is your current position?
    Dr. Shansky. With regard to the District?
    Ms. Norton. No. Your full-time position?
    Dr. Shansky. I consult on correctional health care around 
the country, both----
    Ms. Norton. What was your professional position before 
that?
    Dr. Shansky. I was the Medical Director of the Illinois 
prison system.
    Ms. Norton. I asked because I thought that was your 
position. I certainly regard you as an expert, and I certainly 
accept the notion that these services have been reformed and 
meet Constitutional standards. I would hate to think that they 
hadn't at this point.
    Apparently, appropriate services or similar services are 
being provided in the State of Illinois Correction Department, 
at only 63 percent of the national average, $4.80, compared to 
$7.68. I can't understand why some of that expertise, where in 
Illinois you are below the national average, wasn't brought to 
bear here in the District of Columbia so that we not only got 
it fixed but got it fixed at costs comparable to what 
apparently you have contributed to in Illinois.
    Dr. Shansky. The Illinois numbers you are referring to are 
our prison system. This is a jail. The services designed to be 
provided at this jail are unique in terms of certain 
responsibilities. We have brought the budget down and it is now 
in a position where the Department and the city administration 
will tailor it in any way it chooses. And the fact is that I 
had 12 years of opportunity to work with the Illinois 
Department of Corrections and create the system that I left 
there.
    Ms. Norton. And you had 5 years here. And if we took mental 
health services out, for example, we are still left with twice 
the national average.
    The outside experts said, ``Nowhere in the country are we 
aware of a facility of comparable size that has such a top 
echelon of staff who are not also significantly involved in 
direct patient care. With these salaries, with a medical 
director of $192,857, the Mayor should resign and take this 
job,'' on down. And these salaries are very high.
    Dr. Shansky. Those are not salaries. That's salary plus 
fringe.
    Ms. Norton. We say salary plus fringe.
    Dr. Shansky. You just said salaries.
    Ms. Norton. Well, it says salary plus fringe.
    Dr. Shansky. OK. thank you.
    Ms. Norton. The point is that they are compared, however, 
with facilities of comparable size.
    I point this out only to say, and certainly to say to Mr. 
Christian and Mr. Washington, if I'm pointing this out to the 
receiver, you can bet your bottom--I don't know if you speak 
for the Mayor. Do you, Mr. Washington, when you say you are 
satisfied with this contract?
    Mr. Washington. I'm satisfied with the services that have 
been provided for the D.C. Department of Corrections to 
remediate a 30-year court oversight.
    Ms. Norton. Yes. I----
    Mr. Washington. I'm confident that----
    Ms. Norton. This is not about that, sir. We're not doing an 
oversight hearing on the services, and we haven't questioned 
the quality of the services. The City Council is not going to 
be asking you about the services. They're going to be asking 
you about the cost of the services. I'm asking if you are 
speaking for the Mayor when you say you are satisfied with the 
cost of the services, not the quality of the services. No 
question has been raised about the quality of the services.
    Mr. Washington. I've never said I was satisfied with the 
cost of the service. I'm satisfied with the services. I believe 
very strongly that the costs will continue to go down, and I 
also feel very strongly that----
    Ms. Norton. Are they automatically going to go down? What 
are you going to do to bring the cost down?
    Mr. Washington. We are going to evaluate all the services 
that have been provided. We will have staffing positions, and I 
will provide a plan to this committee to show exactly how the 
Department of Corrections will be prepared to take over this 
contract and further reduce costs.
    Mr. Davis. Let me just say in the next 10 days you are 
going to give us an outline. It doesn't need to be detailed, 
but just kind of a path.
    Ms. Norton. That would be very helpful.
    Mr. Davis. I don't know how you want to do that.
    Ms. Norton. That will be very helpful.
    Mr. Davis. And rather than try to sit here and go off the 
top of your head, we'd rather have you go back and do something 
that is a little reflective and send it back.
    Ms. Norton. My concern, Mr. Chairman, is that these costs 
will go down. Costs never go down. You've got to make costs go 
down.
    Costs always go up, Mr. Washington. Making costs go down or 
maintaining quality is an art, and it is going to take real 
craftsmanship to do that, given the level of cost here.
    Mr. Shansky, I note that your own requirement will be that 
the contractor of these very same services you have designed 
now go forward and get accreditation. Why did you not get 
accreditation, since you've had them for 5 years?
    Dr. Shansky. First of all, I sit on the board of the 
National Commission on Correctional Health Care.
    Ms. Norton. You can recuse yourself, just as you could have 
with respect to the procurement.
    Dr. Shansky. Would you like my answer?
    Ms. Norton. Don't tell me it is because you sit on the 
board. Is there a reason other than a reason that you could 
have easily been released from why you didn't ask for 
accreditation to be--so that you could have handed us back 
fully accredited services.
    Dr. Shansky. Would you like an answer?
    Mr. Davis. Yes. Give us the reason why you didn't get it.
    Dr. Shansky. The reason why we didn't go for accreditation 
was very simple: the accreditation process, when we talked with 
the District, was something that the District wanted to do and 
to take responsibility for. An accreditation of a receiver 
program has nothing to do with whether the program run by the 
District is accredited, and we decided jointly with the 
District to wait for that accreditation process until the 
District had responsibility, and that's why it was written into 
the contract as well as the RFP that by the end of the contract 
year the vendor would achieve accreditation.
    Am I confident that we could have achieved accreditation? 
Unquestionably. I have also been a surveyor for the Joint 
Commission on Accreditation of Health Care Organizations and 
have surveyed 20 of the Federal Bureau of Prison facilities. I 
know how to achieve accreditation. I don't think it proves much 
when I achieve accreditation.
    Ms. Norton. Well, one thing it might prove is that we 
really do have a level of services that anybody can have 
confidence in.
    I think you should be given the opportunity to reply to the 
way in which the Board of Contract Appeals regarded the 
procurement. Apparently the D.C. Contract Appeal Board says, 
``There appears to be little question that, in accordance with 
generally accepted government procurement practice, the initial 
late proposal of the bidder, the person who was successful, was 
improperly handled. The proper procedure would have been to 
hold the proposal unopened, apparently because it was late.''
    They also say that you restricted access by other bidders 
to your current employees, even though they had information 
that should have been made available to all offerors. That's 
from the Appeals Board. They say you gave no basis for your 
statement that the proposal of your employees was dispatched in 
time, and they go on to say the record is clear that the 
proposal was not dispatched at a reasonable time.
    ``Regardless of the correctness of the decision, the 
failure of the receiver to make a written finding supported by 
a record as to his reasons for considering a late proposal 
gives the appearance of impropriety.''
    I think it is only fair that you be allowed to respond to 
that.
    Dr. Shansky. Thank you.
    First of all, I put into the RFP a time deadline to ensure 
that no vendor would be advantaged by having more time to work 
on their proposal. When I was informed by my consultant that 
one proposal was received late, I asked the circumstances. I 
was told that the vendor had arranged to fly--deliver the 
proposal to Atlanta, where the proposals were to be received. 
The vendor's roughly noon flight was canceled, was delayed, 
then the next one was canceled. They put the proposal on Delta 
Dash. The electrical storms in Atlanta then knocked out the 
computers, so Delta Dash couldn't find it for 6 hours. To me 
that seemed like no situation in which any vendor was 
advantaged. The proposal was finished well in advance for 
delivery several hours in advance of the deadline.
    I also felt that it was in the District's interest to have 
three proposals considered rather than two.
    I was advised later on that, according to CAB decisions, 
any deadline can be extended, even in the event of a late 
proposal, if it is for the purpose of expanding the scope of 
competition and especially where the number of proposals is 
small and where there is no unfair advantage.
    I felt all of those things obtained.
    The reality is we ended up, because we had to amend the 
contract because the offsite service situation was a problem 
and was not going to be in the District's interest, we ended up 
amending the RFP anyway and sending out a new one. All vendors 
had a completely fair and open process.
    Look, the reality is one of the vendors, the vendor who 
protested, in fact, had my CFO working with them, so they had a 
person who knew more about my finances and salaries than any of 
the vendors. That's No. 1. So, in terms of them being 
disadvantaged, it's just not true.
    Second of all, all of the salaries and budgets were 
available. They're filed with the court. Anyone had access to 
them.
    The third thing is some of the other vendors proposed 
leadership people that were similar to the or the same as the 
group who had actually ultimately won the contract. We provided 
more data with regard to services, types, utilization, costs, 
etc., than in any RFP I've ever seen. This was as open and 
competitive a process--and remember, the committee that did the 
evaluation and made the recommendation was not created by me. I 
had no say in who was appointed and I had no contact with that 
committee during their deliberations. So the recommendation 
came completely independent of anything that I had to do with 
it.
    Ms. Norton. At bottom finally let me say I think the fact 
that the costs found in this contract are out of line with any 
comparisons that we have been able to come up with or anyone 
else has been able to come up with and no cost comparisons were 
made by you, if, in fact, even with the difficulty of making 
such comparisons, such attempts had been made, I believe that 
we probably would not be sitting here today, because we have 
fully accepted the notion that it is very, very difficult to 
make those comparisons. What we cannot accept is that no 
attempt should be made; that attempts have to be made by other 
agencies of the District of Columbia, but not by the Department 
of Corrections when it comes to the D.C. jail.
    I was particularly interested to read in Mr. Clark's 
testimony that he had offered to provide examples of RFPs from 
the BOP--and here I am looking at page 11 of his testimony--
awarding a similar medical service contract for its four-prison 
complex in Beaumont, TX, at a rate of under $6 a day, and the 
offer was declined. You see, that is what we cannot understand. 
I don't know why you, Mr. Shansky, or you, Ms. Schneider----
    Dr. Shansky. I never received such an offer.
    Ms. Norton. Well, it is in his testimony.
    Dr. Shansky. Well, he can testify, but I never----
    Ms. Norton. He said the offer was declined.
    Dr. Shansky [continuing]. Received such an offer.
    Ms. Norton. What do you have to say to that, Mr. Clark? At 
bottom, this is my concern: that nobody looked to see what 
anybody else was doing, not necessarily that you cost more.
    Dr. Shansky. I have looked at prisons and jails in between 
30 and 40 States, between 100 and 200 facilities. There is no 
one with more experience looking at facilities and issuing RFPs 
in the country than me.
    Ms. Norton. And we haven't found a single one at the cost 
you have left the District with.
    Now, Mr. Clark, you say the offer was declined. What does 
that mean?
    Mr. Clark. This was an offer that I made in the course of 
meetings during the 6-months that was referred to in the 
preparation and detailing of the RFP, I think going back to 
some time in 1998, in meetings with a number of the parties in 
that process that was mentioned.
    Ms. Norton. Clearly what we didn't have here was the kind 
of collegial relationship you say you had with the District 
government. We needed it with you to do that. I really am 
tough, but I'm tough because it is better for me to be tough 
than the folks you all are going to meet next year, and because 
I think that this still can be done.
    I want to say first, as one whose former life was as a 
Constitutional lawyer, spent her early years doing nothing but 
writing briefs to Courts of Appeals and to the Supreme Court on 
cases not unlike the case before us, that I do not want to be 
misunderstood as to the job you had before you or the lack of 
respect I have for the District of Columbia for what it took to 
finally get this thing under control, and that they, 
themselves, did not get it under control and it took outside 
experts to do so.
    I believe that the District is ready to receive this 
function back, but I don't believe it because of anything I've 
heard from Mr. Washington or Mr. Christian here today. I 
believe it because I know the way the Mayor is right-sizing the 
rest of the government. I know that in some detail. I have seen 
what he has required of his department heads. I know that, in 
taking this back, he will put on the task experts that will, in 
fact, right-size this while keeping the quality necessary. I 
say that because there is precedent for his doing it.
    At the same time, I must say that I regret that the city 
will have to spend money on the cost control, and cost 
efficiency aspects of the medical jail receivership. This 
should have been part and parcel of what the medical receiver 
gave us back. I hold not only Dr. Shansky responsible for that. 
It is hard to hold him entirely responsible because he acted 
the way that doctors always act. I hold Ms. Schneider 
responsible for that, since she was to mediate. When she saw 
that Mr. Clark, an outside expert who didn't have a dime in 
this dollar except he was commissioned by us to make sure that 
this was cost efficient, it was your job as the mediator, a 
role you have defined for yourself, to bring Mr. Clark 
sufficiently into this so that there would be cost controls, to 
help Mr. Washington and Mr. Christian understand that this was 
not a stick-up, that they had to do whatever Shansky said or 
else they didn't get it back, and to do for Dr. Shansky what 
managers are having to do for doctors all over the country. It 
is very painful, but unless we do it this way what we will say 
is that those who already have health care can eat up all the 
health care dollars and those such as the residents of the 
District that the Mayor is going to have to get health care for 
simply get left out in the cold.
    Yes, I think you are ready, but I think you are ready 
largely because of the management structure of the D.C. 
government, not because of anything I've heard here today.
    Thank you, Mr. Chairman.
    Mr. Davis. Thank you, Ms. Norton.
    We have 10 days to hear from you, Mr. Washington and Mr. 
Christian.
    Anyone want to add anything? I don't want anybody to feel 
they didn't get the last word, if they wanted to make a 
comment.
    [No response.]
    Mr. Davis. I'm going to enter into the record a briefing, a 
memo distributed to the subcommittee members.
    We'll hold the record open for 2 weeks from this date, for 
those who might want to forward any other submissions for 
possible inclusion.
    I want to again thank all the witnesses for taking the time 
to come today and for your dedication to this.
    These proceedings are closed.
    [Whereupon, at 12:27 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T2581.130

[GRAPHIC] [TIFF OMITTED] T2581.131

[GRAPHIC] [TIFF OMITTED] T2581.132

[GRAPHIC] [TIFF OMITTED] T2581.133

[GRAPHIC] [TIFF OMITTED] T2581.134

[GRAPHIC] [TIFF OMITTED] T2581.135

[GRAPHIC] [TIFF OMITTED] T2581.136


</pre></body></html>
